<html>
<title> - NO CHILD LEFT BEHIND: ENSURING HIGH ACADEMIC ACHIEVEMENT FOR LIMITED ENGLISH PROFICIENT STUDENTS AND STUDENTS WITH DISABILITIES</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                     NO CHILD LEFT BEHIND: ENSURING
                     HIGH ACADEMIC ACHIEVEMENT FOR
                  LIMITED ENGLISH PROFICIENT STUDENTS
                     AND STUDENTS WITH DISABILITIES

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             July 12, 2006

                               __________

                           Serial No. 109-46

                               __________

  Printed for the use of the Committee on Education and the Workforce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
28-624                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                COMMITTEE ON EDUCATION AND THE WORKFORCE

            HOWARD P. ``BUCK'' McKEON, California, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California,
    Chairman                           Ranking Minority Member
Michael N. Castle, Delaware          Dale E. Kildee, Michigan
Sam Johnson, Texas                   Major R. Owens, New York
Mark E. Souder, Indiana              Donald M. Payne, New Jersey
Charlie Norwood, Georgia             Robert E. Andrews, New Jersey
Vernon J. Ehlers, Michigan           Robert C. Scott, Virginia
Judy Biggert, Illinois               Lynn C. Woolsey, California
Todd Russell Platts, Pennsylvania    Ruben Hinojosa, Texas
Patrick J. Tiberi, Ohio              Carolyn McCarthy, New York
Ric Keller, Florida                  John F. Tierney, Massachusetts
Tom Osborne, Nebraska                Ron Kind, Wisconsin
Joe Wilson, South Carolina           Dennis J. Kucinich, Ohio
Jon C. Porter, Nevada                David Wu, Oregon
John Kline, Minnesota                Rush D. Holt, New Jersey
Marilyn N. Musgrave, Colorado        Susan A. Davis, California
Bob Inglis, South Carolina           Betty McCollum, Minnesota
Cathy McMorris, Washington           Danny K. Davis, Illinois
Kenny Marchant, Texas                Raul M. Grijalva, Arizona
Tom Price, Georgia                   Chris Van Hollen, Maryland
Luis G. Fortuno, Puerto Rico         Tim Ryan, Ohio
Bobby Jindal, Louisiana              Timothy H. Bishop, New York
Charles W. Boustany, Jr., Louisiana  [Vacancy]
Virginia Foxx, North Carolina
Thelma D. Drake, Virginia
John R. ``Randy'' Kuhl, Jr., New 
    York
[Vacancy]

                       Vic Klatt, Staff Director
        Mark Zuckerman, Minority Staff Director, General Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on July 12, 2006....................................     1
Statement of Members:
    McKeon, Hon. Howard P. ``Buck,'' Chairman, Committee on 
      Education and the Workforce................................     1
        Prepared statement of....................................     3
    Miller, Hon. George, Ranking Minority Member, Committee on 
      Education and the Workforce................................     3
        Prepared statement of....................................    15
        Aspen Institute Commission Staff Research Report--
          Children With Disabilities and LEP Students: Their 
          Impact on the AYP Determinations of Schools............     5

Statement of Witnesses:
    Buchanan, Keith, English for speakers of other languages 
      office coordinator, Fairfax, VA, County Public Schools.....    31
        Prepared statement of....................................    32
    McLeod, Margaret R., executive director of the Office of 
      Bilingual Education, District of Columbia Public Schools...    34
        Prepared statement of....................................    35
    Neuber, Kristine, Graduate School of Education, George Mason 
      University.................................................    24
        Prepared statement of....................................    26
    Quenemoen, Rachel, senior research fellow, National Center on 
      Educational Outcomes, University of Minnesota..............    17
        Prepared statement of....................................    19
    Soifer, Don, executive vice president, Lexington Institute...    28
        Prepared statement of....................................    29


  NO CHILD LEFT BEHIND: ENSURING HIGH ACADEMIC ACHIEVEMENT FOR LIMITED
                    ENGLISH PROFICIENT STUDENTS AND
                       STUDENTS WITH DISABILITIES

                              ----------                              


                        Wednesday, July 12, 2006

                     U.S. House of Representatives

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:30 a.m., in room 
2175, Rayburn House Office Building, Hon. Howard McKeon 
[chairman of the committee] presiding.
    Present: Representatives McKeon, Petri, Castle, Ehlers, 
Biggert, Platts, Osborne, Kline, Musgrave, Inglis, Fortuno, 
Boustany, Foxx, Kuhl, Miller, Kildee, Andrews, Woolsey, 
Tierney, Kucinich, Wu, Holt, McCollum, Davis of Illinois, 
Grijalva, Van Hollen, and Bishop.
    Staff Present: Amanda Farris, Professional Staff Member; 
Ray Grangoff, Legislative Assistant; Richard Hoar, Professional 
Staff Member; Lindsey Mask, Press Secretary; Chad Miller, 
Coalitions Director for Education Policy; and Deborah L. 
Samantar, Committee Clerk/Intern Coordinator; Toyin Alli, 
Minority Staff Assistant; Alice Cain, Minority Legislative 
Associate/Education; Gabriella Gomez, Minority Legislative 
Associate/Education; Lauren Gibbs, Minority Legislative 
Associate/Education; David Hartzler, Minority Junior Technology 
Assistant; Lloyd Horwich, Minority Legislative Associate/
Education; Ricardo Martinez, Minority Legislative Associate/
Education; Joe Novotny, Minority Legislative Assistant/
Education, Clerk; and Mark Zuckerman, Minority Staff Director/
General Counsel.
    Chairman McKeon. A quorum being present, the Committee on 
Education and the Workforce will come to order. We are holding 
this hearing today to hear testimony on the No Child Left 
Behind Act, ensuring high academic achievement for limited 
English proficient students and students with disabilities. For 
that I ask unanimous consent for the hearing record to remain 
open 14 days to allow members' statements and other extraneous 
material referenced during the hearing to be submitted in the 
official hearing record.
    Without objection, so ordered.
    Good morning. I would like to thank my colleagues for 
joining me here today for the latest in our series of hearings 
on the No Child Left Behind Act. As always, I would like to 
extend a special thank-you to our committee senior Democrat, 
Mr. Miller, and the Education Reform Subcommittee Chairman, Mr. 
Castle, and the Ranking Member, Miss Woolsey, for joining us--I 
am sure she will be here later--for joining us and helping to 
lead this effort.
    We are really trying to get a head start on this whole 
program because we have heard so many things about No Child 
Left Behind, and that is why we are moving this year to hold 
these hearings, to give us a head start moving into next year 
with authorization.
    Today's hearing will focus on how well students with 
disabilities and limited English proficient students are 
excelling in public schools. Additionally, we will examine how 
these student are evaluated, how effective those evaluation 
measures are, and whether or not there is enough flexibility 
granted to States and school districts by the Department of 
Education with regard to these student subgroups.
    First, let us not lose sight of the fact that No Child Left 
Behind was crafted under the guiding principle that all 
students can learn. Disabled, special needs, and LEP students 
are no exception. Because of that, under No Child Left Behind, 
schools are held to higher standards and held accountable for 
the academic achievement of all of the children, including 
special education and LEP students. Indeed, the evaluation of 
these two student subgroups is an essential component of our 
discussions on No Child Left Behind and a window into the 
effectiveness of our current systems of education and 
accountability.
    With regard to disabled students, No Child Left Behind 
affirms our belief that a child should not be discounted simply 
because he or she doesn't learn at the same rate or in the same 
manner as other students. Moreover, the Individuals with 
Disabilities Education Act, which Congress renewed in 2004, 
also requires that all students with disabilities be 
appropriately assessed on State assessments and within the 
context of a student's individualized education program 
allowing for enhanced flexibility and personalization within 
the student's learning experiences. And for limited English 
proficient students, No Child Left Behind also demonstrates our 
belief that these children too can learn. The law makes it 
clear that LEP students should be tested in reading, language, 
arts and math as well as English language acquisition.
    At the same time, the law provides States and local school 
districts the flexibility to test these students in their 
native language for up to 3 years, with an additional 2 years 
of native language assessment provided on a case-by-case basis.
    Today we will be hearing testimony on how our latest 
accountability standards are working at the State and local 
level. School administrators and other expert witnesses are 
with us to discuss the impact of higher accountability 
standards on their respective school systems and on education 
overall.
    I am certain this hearing will buildupon the previous 
hearings in this series. I am eager to hear the unique 
perspective of our witnesses, and I extend a warm welcome to 
them.
    I now yield to my friend Mr. Miller for his opening 
statement.
    [The prepared statement of Mr. McKeon follows:]

    Prepared Statement of Hon. Howard P. ``Buck'' McKeon, Chairman, 
                Committee on Education and the Workforce

    Hearing on ``No Child Left Behind: Ensuring High Academic 
Achievement for Limited English Proficient Students and Students with 
Disabilities''
    Good morning. I'd like to thank my colleagues for joining me here 
today for the latest in our series of hearings on the No Child Left 
Behind Act. As always, I'd like to extend a special thank you to our 
Committee's senior Democrat, Mr. Miller, and the Education Reform 
Subcommittee's Chairman, Mr. Castle, and ranking Member, Ms. Woolsey, 
for joining us and helping to lead this effort.
    Today's hearing will focus on how well students with disabilities 
and limited English proficient (or LEP) students are excelling in 
public school. Additionally, we will examine how these students are 
evaluated, how effective those evaluation measures are, and whether or 
not there is enough flexibility granted to states and school districts 
by the Department of Education with regard to these student subgroups.
    First, let's not lose sight of the fact that No Child Left Behind 
was crafted under the guiding principle that all students can learn. 
Disabled, special needs, and LEP students are no exception. Because of 
that, under No Child Left Behind, schools are held to higher standards 
and held accountable for the academic achievement of all the children--
including special education and LEP students. Indeed, the evaluation of 
these two student subgroups is an essential component of our 
discussions on No Child Left Behind and a window into the effectiveness 
of our current systems of evaluation and accountability.
    With regard to disabled students, No Child Left Behind affirms our 
belief that a child should not be discounted simply because he or she 
doesn't learn at the same rate or in the same manner as other students. 
Moreover, the Individuals with Disabilities Education Act--which 
Congress renewed in 2004--also requires that all students with 
disabilities be appropriately assessed on state assessments and within 
the context of a student's Individualized Education Program, allowing 
for enhanced flexibility and personalization within the student's 
learning experiences.
    And for limited English proficient students, No Child Left Behind 
also demonstrates our belief that these children, too, can learn. The 
law makes it clear that LEP students should be tested in reading, 
language arts, and math, as well as English language acquisition. At 
the same time, the law provides states and local school districts the 
flexibility to test these students in their native language for up to 
three years, with an additional two years of native language assessment 
provided on a case-by-case basis.
    Today, we will be hearing testimony on how our latest 
accountability standards are working at the local and state level. 
School administrators and other expert witnesses are with us to discuss 
the impact of higher accountability standards on their respective 
school systems and on education overall.
    I'm certain this hearing will build upon the previous hearings in 
this series, and I am eager to hear the unique perspectives of our 
witnesses--and I extend a warm welcome to them. And with that, I now 
yield to my friend, Mr. Miller for his opening statement.
                                 ______
                                 
    Mr. Miller. Thank you, Mr. Chairman. I want to thank you 
for scheduling today's hearings on how No Child Left Behind 
laws are affecting two groups of students we had in the 
forefront of our mind when we wrote No Child Left Behind: 
Students with disabilities and English language learners. It is 
imperative that we look closely at how the law has affected 
these students.
    However, I believe we would have been better able to 
explore these important issues had we devoted one hearing to 
focus solely on children who are English language learners and 
devoted a separate hearing to focus on children with special 
needs. There are numerous issues that need to be explored in 
involving both groups of children, including different sets of 
regulations that mandate how States are held accountable for 
these children and how these children are tested. I hope that 
we will have additional opportunities to delve more deeply into 
these issues as they relate to two important but distinct 
groups of children.
    That said, I would like to point out two things that 
subgroups have in common. First, children who are English 
language learners and children with special needs are 
anecdotally least or most often unfairly blamed for the reason 
why schools did not make adequate yearly progress, known as 
AYP. I can't tell you how many times I have heard the 
complaints of the particular school that would have made AYP 
except for just one special education student or except for 
just one English language learner. I hear it over and over and 
over. It is interesting now that we see new research that comes 
from the Aspen Institute report that I would like to submit for 
the record, if it is all right, Mr. Chairman, and as part of 
the record of this hearing.
    This report shows the subgroups' size in some States such 
as my home State of California is so large that many schools 
are not held accountable for subgroups of either students with 
disabilities or English language learners. For example, the 
report found in California's 9,410 schools, only 839 had a 
subgroup of children with disability. While about half of these 
schools did not make AYP, only 28 of those schools did not make 
AYP exclusively because of the disabilities subgroup.
    An awful lot of responsibility and blame has been offloaded 
onto these children as to why they have made AYP, but it 
doesn't hold up under the data. And again I want to make part 
of the record of this hearing this report, because they deal 
with, I think, Georgia, Pennsylvania, several other States. I 
think it is going to be available for all States, but the fact 
of the matter is this is becoming an urban legend: But for this 
one student, our schools is just doing great.
    And now this is--you know, I recognize that California is 
very large in size, but it is interesting that it is very 
similar in States with sizes of 40 and 30 in terms of that. And 
I think it is important that we understand that going into this 
hearing.
    Second, the challenges and struggles that these two groups 
of students face has been made worse by inadequate funding 
levels. No Child Left Behind has been underfunded to date by 
over $55 billion. Next year's budget as passed by the 
Appropriation's Committee would cut No Child Left Behind by 
nearly 500 million as compared to fiscal year 2006, by 1.5 
billion compared to 2005. The bill falls over $16 billion short 
that was promised for 2007 creating a cumulative funding 
shortfall of $56.7 billion since the law was enacted. Think of 
the problems that could be solved if you had those kinds of 
resources available to them. Not everything would be right with 
No Child Left Behind, but many of the difficulties the school 
districts and States are encountering would certainly be 
somewhat simpler.
    The underfunding of IDEA also puts a squeeze on school 
districts. We are asking them to do more than ever for all 
students. I am extremely concerned that the funding for the 
share of education for children with disabilities continues to 
drop from 18.26 percent in 2005 to 17 percent in 2007, 
continuing the breaking of the promise that Congress made to 
pay 40 percent of the cost of educating 6.9 million students 
with disabilities. As a result, an additional $1 billion would 
be needed to restore the Federal share to its 2005 level.
    Finally, as one of the original authors of No Child Left 
Behind, I get asked a lot about the future of the law. With the 
access for reauthorization next year, one of the challenges 
will be to maintain the core values of the law while still 
being responsive to legitimate concern. The core value I hold 
dear is closing the achievement gap in helping all children, 
including students with disabilities and English language 
learnings. We have an obligation to help these students become 
proficient in the knowledge and skills they need to fulfill 
their potential.
    A second challenge will be to analyze the problems with the 
law to determine which are due to the problems with the 
students themselves and which are due to chronic underfunding 
of law and which are due to problems with the Department of 
Education's implementation of the law.
    I am disappointed that the DOE is not represented here 
today to help us understand the rationale behind of some of the 
regulatory policies and which are related to the accountability 
for testing for both children who are English language learners 
and children with disabilities. Nothing is more important than 
ensuring that we live up to the No Child Left Behind promise to 
provide the opportunity for quality education for every child 
in our country, and I look forward from hearing from the 
panelists. And again, I want to thank the Chairman for calling 
these hearings.
    I made in the middle of my testimony, but I would like to 
make a request that the Aspen Institute report be made part of 
the record of this hearing.
    Mr. Castle [presiding]. Yes, of course. Without objection, 
the Aspen Institute report will be made a part of this hearing. 
Thank you, Mr. Miller. We appreciate your opening statement.
    [The information referred to follows:]

        Commission on No Child Left Behind--The Aspen Institute

    Commission Staff Research Report--Children With Disabilities and
    LEP Students: Their Impact on the AYP Determinations of Schools

    As part of the No Child Left Behind Act (NCLB), states must set 
annual targets that will lead to the goal of all students reaching 
proficiency in reading and mathematics by the 2013-2014 academic school 
year. For each measure of school performance, states must include 
absolute targets that must be met by key subgroups of students. These 
subgroups include major racial/ethnic groups, low-income students, 
children with disabilities, and limited English proficient (LEP) 
students. Schools and districts must meet annual targets\1\ for each 
student subgroup in the school and must test 95% of students in each 
subgroup in order to make ``adequate yearly progress'' (AYP).
---------------------------------------------------------------------------
    \1\ Annual targets may be met through averaging of up to three 
years of achievement data.
---------------------------------------------------------------------------
    In order for a subgroup to be included for accountability purposes, 
it must meet the necessary ``N-size.'' Under NCLB, N-size is the 
minimum number of students required in a subgroup in order for an AYP 
determination to be made. Each state has the flexibility to decide what 
the N-size will be for the schools in their state. Some states have 
certain minimums such as 30 students and/or require a percentage of the 
total student population. The law originally created this exemption so 
that students' privacy would not be compromised and that a small number 
of students would not have a significant impact on the AYP decision of 
a school.
    However, larger N-sizes can have a considerable impact on the AYP 
status for a school. These N-sizes can make a significant difference in 
how many subgroups factor into a school's AYP status. The trend since 
the initial year after the enactment of NCLB has been for states to 
enlarge their N-sizes. Due to this state trend, increasing numbers of 
students, including children with disabilities and LEP children, have 
not been included in state accountability systems. Coupling large N-
sizes with a diverse population can create an environment where very 
few, if any subgroups are included in the AYP decision of a school.
    One common complaint of No Child Left Behind is that schools are 
not making AYP solely because of children with disabilities or LEP 
students. The analysis done for this report raises questions about this 
claim due to the large numbers of schools in states that do not have to 
report for these subgroups. Furthermore, even when these subgroups do 
not meet their annual targets, they are very often not the sole reason 
a school is identified as not making AYP.
    This case study analyzes student achievement data from the 2004-
2005 academic school year in five states: California, Florida, 
Michigan, Georgia, and Pennsylvania. This study observes: 1) the number 
of schools that have to report for children with disabilities and LEP 
students, as well as the percentage of students that these populations 
represent, 2) the number of schools for which the students in these two 
subgroups did not make AYP, and 3) whether or not these schools missed 
AYP solely based on these two subgroups.
    For this case study student achievement data was collected for each 
and every school in these five states. The data used was acquired from 
information posted on each state's Department of Education website or 
from data personnel of the state. Those seeking this data can obtain it 
from the Commission website at www.nclbcommission.org.
California
    In California, an AYP determination is required if the school has 
100 or more students enrolled in a particular subgroup OR 50 or more 
students enrolled who make up at least 15% of the total enrollment.

            Children With Disabilities Subgroup

    Of the 9,410 schools in California, 839 schools reported an AYP 
determination for at least one category for children with disabilities, 
including proficiency and participation in math and reading. This is 9% 
of the total number of schools within the state.
    Of these 839 schools, 410 reported not making AYP in one of these 
categories for children with disabilities. Therefore, nearly 50% of 
schools reporting for a subgroup made up of children with disabilities 
did not make AYP. These 410 schools, however, only make up 4% of the 
total number of schools within the state.
    Of the 410 schools, 28 schools did not make AYP solely because of 
the children with disabilities subgroup. This is a little less than 1% 
of the total 3,618 schools in California that did NOT make AYP or 
approximately .3% of the total schools in California.
    The total number of children with disabilities tested in the 9,410 
schools is approximately 380,586. Only one third of these students 
(104,884) are enrolled in the 839 schools that actually reported an AYP 
determination for the subgroup.

            Limited English Proficiency (LEP) Subgroup

    Of the 9,410 schools in California, 4,140 reported an AYP 
determination for at least one category for LEP students, including 
proficiency and participation in math and reading. This is 
approximately 44% of the total number of schools.
    Of these 4,140 schools, 2,101 reported not making AYP in at least 
one of these categories for LEP students. Therefore nearly 51% of 
schools reporting for the LEP subgroup did not make AYP. However, those 
2,101 schools make up only 22% of the total number of schools within 
the state.
    In California, 443 schools did not make AYP solely because of the 
LEP subgroup. This is approximately 12% of the total 3,618 schools in 
California that did NOT make AYP or nearly 5% of the total schools in 
California.
    The total number of LEP students tested in the 9,410 schools is 
approximately 1,273,848. Approximately 87%, (1,113,826) are enrolled in 
the 2,101 schools that actually reported an AYP determination for the 
subgroup.
Florida
    In Florida, an AYP determination is required if a subgroup is 
comprised of 30 students AND at least 15% of a school's total 
enrollment. This was recently changed from previous years where the N-
size requirement was just 30 students.

            Children With Disabilities Subgroup

    Of the 3,106 schools in Florida, 1,813 reported an AYP 
determination for at least one category for children with disabilities, 
including only proficiency in math and reading. This is approximately 
58% of the total number of schools.
    Of these 1,813 schools, 1,333 reported not making AYP in one of 
these categories for children with disabilities. However, due to 
special flexibilities, 588 of these schools have been reported by 
Florida as making AYP provisionally and 70 were classified as making 
AYP. As a result, only 675 schools which did not make AYP for the 
children with disabilities subgroup have been reported as missing their 
AYP goals overall. Florida was granted a one-year flexibility to count 
more of its special education students with moderate disabilities as 
proficient on state tests.
    In Florida only 23 schools did not make AYP solely because of the 
children with disabilities subgroup. This is approximately 2% of the 
total 1,162 schools that did not make AYP.
    The total number of children with disabilities tested in the 3,106 
schools is approximately 216,065. Approximately 83% (181,120) are 
enrolled in the 1813 schools that actually reported an AYP 
determination for the subgroup.

            Limited English Proficiency (LEP) Subgroup

    Of the 3,106 schools in Florida, 724 reported an AYP determination 
for at least one category for LEP students, including only proficiency 
in math and reading. This is 23% of the total number of schools.
    Of these 724 schools, 427 reported not making AYP in at least one 
of these categories for LEP students. However due to special 
flexibilities, only 247 of these schools have been reported by Florida 
as NOT making AYP. In addition, 171 made AYP provisionally, and 9 still 
made AYP. Florida factors in its own state accountability system into 
its AYP determinations. This allows schools to make AYP if they score 
an ``A'' or ``B'' in the state system. The U.S. Department of Education 
has not approved Florida's use of its own state accountability system 
in this manner.
    In Florida only 10 schools did not make AYP solely because of the 
LEP subgroup. This is approximately 1% of the total 1,162 schools that 
did not make AYP.
    The total number of students enrolled in testing for the LEP 
subgroup in the 3,106 schools is approximately 136,997. Nearly 80% 
(107,061) are enrolled in the 724 schools that actually reported an AYP 
determination for the subgroup.

Georgia
    In Georgia, an AYP determination is required if the subgroup size 
is 40 or 10% of the students enrolled in AYP grades, whichever is 
greater (with a 75 student cap).

            Children With Disabilities Subgroup

    Of the 2,030 schools in Georgia, 1048 reported an AYP determination 
for at least one category for children with disabilities including 
proficiency and participation in math and reading. This is 
approximately 53% of the total number of schools.
    Of these 1,078 schools, 192 reported not making AYP in any children 
with disabilities category. Therefore nearly 18% of reporting schools 
did not make AYP, however those 192 schools only make up 10% of the 
total number of schools.
    Of the 192 schools, 140 schools did not make AYP solely because of 
the children with disabilities subgroup. This is approximately 7% of 
the total number of schools in Georgia.
    The total number of students enrolled in testing for the children 
with disabilities subgroup in the 2,030 schools is approximately 
108,316. Almost 80% (85,117) are enrolled in the 1,078 schools that 
actually reported an AYP determination for the subgroup.

            Limited English Proficiency (LEP) Subgroup

    Of the 2,030 schools in Georgia, 209 schools reported an AYP 
determination for at least one category for LEP students including 
proficiency and participation in math and reading. This is 
approximately 10% of the total number of schools.
    Of these 209 schools, 23 reported not making AYP in at least one of 
these LEP categories. Therefore about 11% of reporting schools did not 
make AYP, however those 23 schools only make up 1% of the total school 
population. Six schools did not make AYP solely because of the LEP 
subgroup. This is about .003% of the total number of schools in 
Georgia.
    The total number of students enrolled in testing for the LEP 
subgroup in the 2,030 schools is approximately 28,607. Over two-thirds 
of these students (19,279) are enrolled in the 209 schools that 
actually reported an AYP determination for the LEP subgroup.

Michigan
    In Michigan, an AYP determination is required if a subgroup has 30 
or more students enrolled. Information from subgroups that do not meet 
this criterion will be reported to the individual school but not used 
for accountability purposes.

            Children With Disabilities Subgroup

    Of the 3,566 schools in Michigan, 2,118 schools reported an AYP 
determination for at least one category for children with disabilities 
including only proficiency in math and reading. This is nearly 60% of 
the total number of schools.
    Of these 2,118 schools, 98 reported not making AYP in at least one 
of these categories for children with disabilities. Therefore, nearly 
5% of schools reporting did not make AYP. These 98 schools, however, 
only make up 3% of the total number of schools within the state.
    In Michigan, only 54 schools did not make AYP solely because of the 
children with disabilities subgroup. This is approximately 12% of the 
total 436 schools in Michigan that did not make AYP.
    The total number of children with disabilities tested in the 3,566 
schools is approximately 53,015. Nearly 70% (36,439) are enrolled in 
the 2118 schools that actually reported an AYP determination for the 
subgroup. (In grades 4 and 7, the total number of students tested was 
calculated by averaging ELA and Math figures.)

            Limited English Proficiency (LEP) Subgroup

    Of the 3566 schools in Michigan, 318 reported an AYP determination 
for at least one category for LEP students including only proficiency 
in math and reading. This is 9% of the total number of schools.
    Of these 318 schools, 10 reported not making AYP in at least one of 
these categories for LEP students. Therefore 3% of reporting schools 
did not make AYP. However, these 10 schools make up less than 1% of the 
total school population within the state of Michigan.
    In Michigan, only 10 schools did not make AYP solely because of the 
LEP subgroup. This is approximately 2% of the total 436 schools that 
did not make AYP.
    The total number of students enrolled in testing for the LEP 
subgroup in the 2,030 schools is approximately 28,607. Approximately 
two-thirds of these students (19,279) are enrolled in the 209 schools 
that actually reported an AYP determination for the LEP subgroup.
    The total number of LEP students tested in the 3,566 schools is 
approximately 14,422. Nearly 45% (6,424) are enrolled in the 318 
schools that actually reported an AYP determination for the subgroup. 
(In grades 4 and 7, the total number of students tested was calculated 
by averaging ELA and Math figures.)

Pennsylvania
    In Pennsylvania, a school is required to make an AYP determination 
if a subgroup has 40 or more students enrolled. For schools with an N-
size below 40, the department will use two to three years of data in 
making AYP calculations if available, and will consider using a 
confidence interval. Therefore, all schools within the state must meet 
the same accountability requirements.

            Children With Disabilities Subgroup

    Of the 3,025 schools in Pennsylvania, 341 reported an AYP 
determination for at least one category for children with disabilities, 
including proficiency and participation in math and reading. This is 
11% of the total number of schools within the state.
    Of these 341 schools, 187 reported not making AYP in at least one 
of these categories for children with disabilities. Therefore, nearly 
55% of reporting schools did not make AYP. These 187 schools, however, 
only make up 6% of the total number of schools within the state.
    Of the 187 schools, 109 schools did not make AYP solely because of 
the children with disabilities subgroup. This is approximately 19% of 
the total 583 schools in Pennsylvania that did not make AYP.
    The total number of students enrolled in testing for the children 
with disabilities subgroup in the 3,025 schools is approximately 
58,753. Nearly 41% (23,987) are enrolled in the 1,078 schools that 
actually reported an AYP determination for the subgroup.

            Limited English Proficiency (LEP) Subgroup

    Of the 3025 schools in Pennsylvania, 36 schools reported an AYP 
determination for at least one category for LEP students, including 
proficiency and participation in math and reading. This is 
approximately 1% of the total number of schools.
    Of these 36 schools, 6 reported not making AYP in at least one of 
these categories for LEP students. Therefore over 16% of reporting 
schools did not make AYP, however those 6 schools make up less than 1% 
of the total school population.
    There were no schools that did not make AYP solely because of the 
LEP subgroup.
    The total number of students enrolled in testing for the LEP 
subgroup in the 3,025 schools is approximately 6,337. Nearly 20% 
(1,188) are enrolled in the 36 schools that actually reported an AYP 
determination for the subgroup.
    The Commission on No Child Left Behind is funded by the Bill & 
Melinda Gates Foundation, the Ewing Marion Kauffman Foundation, the 
Joyce Foundation, the John D. and Catherine T. MacArthur Foundation, 
Carnegie Corporation of New York, and the Spencer Foundation. This 
document is published to communicate the results of the Commission's 
work. The findings, interpretations, and conclusions expressed in the 
Commission's documents are entirely those of the author(s) and should 
not be attributed in any manner to the donors.
Appendix--Supplemental Data Tables and Graphs

                                                       IMPACT OF STUDENTS WITH DISABILITIES ON AYP
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                         Students in
                                                                    Schools reporting    Schools that missed    AYP missed solely     reporting schools
                              State                                 AYP for subgroup       AYP in subgroup     because of subgroup     represented in
                                                                                                                                          subgroup
--------------------------------------------------------------------------------------------------------------------------------------------------------
California......................................................                   9%                    4%                    1%                   28%
Florida.........................................................                  58%                   22%                    2%                   83%
Georgia.........................................................                  53%                   10%                   38%                   80%
Michigan........................................................                  60%                    3%                   12%                   70%
Pennsylvania....................................................                  11%                    6%                   19%                   41%
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                               IMPACT OF STUDENTS WITH LIMITED ENGLISH PROFICIENCY ON AYP
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                         Students in
                                                                    Schools reporting    Schools that missed    AYP missed solely     reporting schools
                              State                                 AYP for subgroup       AYP in subgroup     because of subgroup     represented in
                                                                                                                                          subgroup
--------------------------------------------------------------------------------------------------------------------------------------------------------
California......................................................                  44%                   22%                   12%                   87%
Florida.........................................................                  23%                    8%                    1%                   80%
Georgia.........................................................                  10%                    1%                    2%                   67%
Michigan........................................................                   9%          Less than 1%                    2%                   45%
Pennsylvania....................................................                   1%          Less than 1%                     0                   20%
--------------------------------------------------------------------------------------------------------------------------------------------------------

                               CALIFORNIA

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
    [The prepared statement of Mr. Miller follows:]

  Prepared Statement of Hon. George Miller, Ranking Minority Member, 
                Committee on Education and the Workforce

    Good morning. I want to thank Chairman McKeon for scheduling 
today's hearing on how the No Child Left Behind law is affecting two of 
the groups of children we had at the forefront of our minds when we 
wrote No Child Left Behind: students with disabilities and English 
language learners. It is imperative that we look closely at how the law 
has affected these students.
    However, I believe that we would better be able to explore these 
important issues if we devoted one hearing to focus solely on children 
who are English language learners, and devoted a separate hearing to 
focus on children with special needs.
    There are numerous issues that need to be explored involving both 
groups of children, including different sets of regulations that 
mandate how states are held accountable for these children and how 
these children are tested. I hope that we will have additional 
opportunities to delve more deeply into these issues as they relate to 
two important, but distinct, groups of children.
    That said, I would like to point out two things that these 
subgroups have in common.
    First, children who are English language learners and children with 
special needs are--anecdotally at least--most often unfairly blamed as 
the reason their school did not make Adequate Yearly Progress, or AYP. 
I can't tell you how many times I've heard the complaint that a 
particular school would have made AYP ``except for just one special 
education student'' or ``except for just one English language 
learner.''
    The research I have seen does not back this claim, including a 
recent Aspen Institute Report that I would like to submit into the 
record. This report shows that the subgroup size in some states, such 
as my home state of California, is so large that many schools are not 
held accountable for subgroups of either students with disabilities or 
English language learners.
    For example, the report found that California's 9,410 schools, only 
839 had a subgroup of children with disabilities. While about half of 
these schools did not make AYP, only 28 schools did not make AYP 
exclusively because of the disabilities subgroup.
    Second, the challenges and struggles that these two groups of 
students face have been made worse by inadequate funding levels. No 
Child Left Behind has been underfunded to date by over $55 billion. 
Next year's budget, as passed by the Appropriations Committee, would 
cut No Child Left Behind by nearly $500 million, as compared to FY06 
and by $1.5 billion compared to FY05.
    The bill falls over $16 billion short of the No Child Left Behind 
funding level promised for 2007, creating a cumulative funding 
shortfall of $56.7 billion since the law was enacted in 2002.
    The under funding of IDEA also puts a squeeze on school districts 
at the same time we are asking them to do more than ever for all 
children.
    I am extremely concerned that the federal funding share of 
educating children with disabilities continues to drop--from 18.6 
percent in 2005 to 17.0 percent in 2007--breaking the promise that 
Congress made to pay 40 percent of the costs of educating 6.9 million 
students with disabilities. As a result, an additional $1 billion would 
be needed to restore the federal share to its 2005 level.
    Finally, as one of the original authors of No Child Left Behind, I 
get asked a lot about the future of the law. With the Act set for 
reauthorization next year, one challenge will be to maintain the core 
values of the law while still being responsive to legitimate concerns.
    A core value that I hold dear is closing the achievement gap and 
helping all children, including students with disabilities and English 
language learners. We have an obligation to help these students become 
proficient in the knowledge and skills they need to fulfill their 
potential.
    A second challenge will be to analyze problems with the law to 
determine which are due to problems with the statute itself, which are 
due to chronic underfunding of the law, and which are due to problems 
with the Department of Education's implementation of the law.
    I am disappointed that the Department of Education is not 
represented here today to help us understand their rationale behind 
some of the regulatory policies related to accountability and testing 
of both children who are English language learners and children with 
disabilities.
    Nothing is more important than ensuring that we live up to No Child 
Left Behind's promise to provide opportunity and a quality education 
for every child in our country. I look forward to hearing from our 
panelists.
    Thank you Mr. Chairman.
                                 ______
                                 
    Mr. Castle. My name is Mike Castle. I am not Mr. McKeon. I 
am not the Chairman of the committee. I am chairman of the 
subcommittee that deals with No Child Left Behind and in Mr. 
McKeon's absence I will chair this hearing.
    Before I introduce the witnesses, for a moment I want to 
stress the importance of the subject matter that we are dealing 
with, perhaps to all of us in the room. In watching No Child 
Left Behind over the past several years it seems to me that 
there has been no area that has been as--I don't necessarily 
want to say contentious or controversial, but has had as many 
questions raised about it, if you will, in terms of assessments 
on how we are doing. And yet there is probably no area in which 
Members of Congress who voted for this, or the President who 
first came up with the concept, at least in Washington, of 
taking the Elementary and Secondary Education Act and advancing 
it to this level are concerned about as making sure that every 
child is educated, that no child is left behind. And obviously 
when you are dealing with those children who may be perhaps 
more blocked than others in terms of their advance, it becomes 
extremely important that we learn how to educate better and how 
to assess better in that particular circumstance.
    We have seen already a number of changes with the 
Department of Education. We have seen them issue a variety of 
opinions with respect to this area, but as we deal with 
disabilities in English language learners, we need to come to 
grips with this as soon as we can. Mr. Miller indicated this in 
his opening statement, which is that we intend to take this up 
next year in a relatively expeditious way and these hearings 
are for that purpose. So it is very important that we develop 
as much knowledge as we can. We appreciate all of you being 
here today.
    I will go through introductions of each of you and then 
after that I will explain the rather scant rules that we have 
but we would like you to live by if you can.
    I will just go in order.
    Ms. Rachel Quenemoen is the technical assistant team leader 
for the National Center on Educational Outcomes, an 
organization that focuses on designing and building assessments 
and accountability systems that appropriately monitor 
educational results for all students, including students with 
disabilities and students with limited English proficiency. Ms. 
Quenemoen has worked for 25 years as an educational 
sociologist. She has been a multidistrict cooperative 
administrator in both general and special education and for the 
last 10 years has worked at the State and national levels on 
educational change processes and reform efforts related to 
standard-based reform with students with disabilities. She is 
also the mother of a daughter with Down's syndrome.
    Ms. Kristine Neuber is a Ph.D. student in special education 
at George Mason University. She has also worked as an 
administrative faculty member at the College of Education and 
Human Development for 10 years. Ms. Neuber coordinates the 
Assistive Technology Initiative and provides assistive 
technology services for all university students and employees 
with disabilities. She also acts as the Web accessibility 
coordinator for the university.
    Prior to working at George Mason University Ms. Neuber 
worked in the Virginia public schools as a special education 
teacher for 4 years. In addition to her professional 
qualifications, she was classified as a student with disability 
because she has cerebral palsy.
    Mr. Don Soifer is Executive Vice President of the Lexington 
Institute, a public policy think-tank based near Washington, 
D.C. Mr. Soifer has written dozen of papers and articles on 
education policies relating to English language learning. He 
has been published on these and other education issues 
including school choice and charter schools and special 
education. He has also served as a consult for the Virginia 
Department of Education. He has served on the Editorial Board, 
the Multibilingual Board, and ASP for school reform news.
    Mr. Keith Buchanan has worked in Fairfax County Public 
Schools English for speakers of other languages, ESOL, Office 
since 1994. In his position as coordinator, one of his main 
responsibilities includes developing instructions and 
assessment for over 22,000 English language learners. In 
addition to his work with Fairfax County, Mr. Buchanan is an 
adjunct professor at George Mason University for bilingual 
education. Mr. Buchanan has worked in his field since 1977 and 
during his career he has helped start 14 new ESL programs 
throughout the schools.
    Ms. Margaret McLeod is Executive Director of the Office of 
Bilingual Education for District of Columbia Public Schools. 
She has previously served as Deputy Director for the 
Association for Bilingual Education. From 1995 to 2001 she 
worked at the Department of Education as a special assistant to 
the Assistant Secretary for Special Education and 
Rehabilitating Services. In that capacity, she focused 
specifically on English language learners and students with 
disabilities. She has also worked as special education and 
bilingual special education teachers.
    And we appreciate all of you being here. If you didn't like 
the description of your background, please talk to the staff 
when this is all said and done.
    A lot of you know the basic rules here. We have your 
testimony here. You have 5 minutes, reflected by a green light, 
4 for yellow, and 1 for red. We hope as you see the yellow and 
red, you begin to think about summing up, and then when each of 
you is done, we will go across in the same order in which I 
introduced you.
    And then there is some awful moment where to go vote on the 
floor--and we have to--but we will deal with that as it comes 
up. But we really appreciate you being here. I can't stress 
that enough, and I think what we are doing here today is 
vitally important.
    So we will start with you, Miss Quenemoen.

STATEMENT OF RACHEL QUENEMOEN, SENIOR RESEARCH FELLOW, NATIONAL 
    CENTER ON EDUCATIONAL OUTCOMES, UNIVERSITY OF MINNESOTA

    Ms. Quenemoen. Thank you, Chairman McKeon and Chairman 
Castle and members of the committee. Our daughter was born 31 
years ago on this Friday. The year that Public Law 94142 was 
passed and the public schools were opened to her.
    I am grateful for the opportunity to thank each and every 
one of you for your support and leadership of both you and your 
predecessors to ensure that all people and other students with 
disabilities have a free, appropriate public education.
    Although Congress has made it clear for almost a decade 
that this free appropriate education is to be based on high 
expectations and challenging standards, the IDEA 97 focus on 
access to and progress in the general curriculum was ignored. 
It took NCLB accountability to trigger profound shifts in 
access and an opportunity to learn for students with 
disabilities in some school districts and States.
    I work at the National Center on Educational Outcomes, 
assisting States and building strong assessment and 
accountability systems. We have been observing the shifts in 
access in achievements in students with disabilities for the 
past 16 years. In 1990, only 10 percent of students with 
disabilities participated in assessments in many States, 
although IDEA 97 required including all in assessments. NCLB 
requirements finally brought participation rights up. We know 
the children we measure get taught, so this change is extremely 
important and welcome.
    Since 2003 we have tried to document how States are 
including students with disabilities and NCLB accountability 
systems. The picture is not always clear. Often publicly posted 
State accountability plans and posted State reports do not 
match. Thus we have found it impossible to describe or verify 
State practices based on publicly available State reporting. We 
know from research done by colleagues using modeling approaches 
that, given many State accountability strategies, many students 
with disabilities have disappeared from school AYP calculations 
or public reporting.
    Along with this murky view of current accountability 
practices, we hear grossly inaccurate statements about the 
purpose of IDEA, with educators and policymakers demonstrating 
erroneous beliefs that a student eligible for special education 
services could or even should be placed in a separate 
curriculum on a lower expectation track in the name of 
individualization.
    Even in State offices in special education, not all leaders 
seem to understand that Federal IDEA requirements, strengthened 
through the 2004 reauthorization, focus on provisions of 
specialized instruction services and support so that students 
with disabilities achieve at highest levels in the same 
challenging content as their grade peers.
    These erroneous assumptions underlie our discussion today. 
It is puzzling to hear this confusion given the plain and 
consistent language of IDEA and NCLB, but it is alarming, given 
what we understand about the effect of expectations and student 
learning. The literature on steeper expectations and student 
achievement is deep and strong. What teachers expect is 
typically what students can do. For many educators ``special 
education'' has become code words saying this child can't 
learn.
    Disabilities may affect how a student learns but not 
dramatically affect what the student learns. We have researched 
and practice-tested methods to teach all children well, but we 
have not seen the commitment to do so in some States, districts 
and schools.
    How can you judge whether a State, district, or school is 
committed to the goal of all students being successful when the 
system is not transparent? Here are some questions you can pose 
to judge for yourself.
    What does the leadership say? Blaming and excuse-making 
reflects a lack of commitment to the goal of success for all 
students. Instead, you should see and hear State leaders 
support, train, and expect educators at all levels to bring 
every learner to the content using evidence-based teaching 
strategies to accelerate and scaffold the student learning in 
order to provide access in spite of the student's disability.
    What do you see and hear in your States? What does the 
assessment system look like? Do you see evidence of the 
commitment to all students in their State assessments? Testing 
students on the curriculum they should be taught ensures they 
will be taught.
    What does the accountability system suggest? Why do some 
States require large ``n'' sizes and other strategies while 
other States protect the privacy of the student but expect the 
schools to be transparent in their performance? Where are the 
success stories, and why? Studies are showing that in schools 
with high achievement of students with disabilities, they are 
systematically supporting intensive, targeted, research-based 
instruction through training researchers for highly qualified 
teachers and their students. Is that happening in your states?
    Should State districts and schools be held accountable for 
the learning of all students including the student with 
disabilities? Yes. Lowering standards for some students cannot 
be the solution to the challenges educators face in helping 
them reach proficiency.
    Have schools in your State used their IDEA in Title I 
wisely or do they use IDEA categories to justify shunting 
children into a separate curriculum? How do you know? We must 
trust but verify public and transparent reporting of these 
complex issues with independent verification as an essential 
part of discussions about accountability systems.
    We are 5 years into meaningful reform under NCLB. Many 
students with disabilities have just recently been given access 
to challenging curriculum. We need to stay the course to 
overcome years of low expectations and limited opportunities.
    Mr. Castle. Thank you. We appreciate that and obviously we 
will be getting back to you.
    [The prepared statement of Ms. Quenemoen follows:]

    Prepared Statement of Rachel Quenemoen, Senior Research Fellow, 
    National Center on Educational Outcomes, University of Minnesota

I. Introduction
    I am the parent of a daughter who has Down syndrome, born 31 years 
ago this Friday, the year P.L. 94-142 was passed. In my opinion, the No 
Child Left Behind Act (NCLB) has done more to ensure that students like 
my daughter will learn the challenging and interesting content expected 
for all other learners than any single event in those 31 years.
    Although the school door was opened in 1975 to children like mine, 
the Individuals with Disabilities Education Act (IDEA) reauthorization 
in 1997 was necessary to affirm their right to full access to the 
standards-based general curriculum. Unfortunately, the 1997 IDEA focus 
on access to the same challenging general curriculum was ignored by 
many educators. It took NCLB accountability provisions (for example, 
the requirement that all children are to be assessed on the same 
content, and schools are held accountable for student achievement) to 
trigger profound shifts in access and opportunity to learn for students 
with disabilities in some schools, districts, and states.
    In others it has led to public displays of dismay and assertions 
that educators should not be held accountable for students who are 
perceived to be difficult to teach. In some cases, it has led to fear 
and confusion on the part of many parents who see their children being 
publicly blamed for school problems, instead of seeing strong and clear 
leadership to empower teachers and parents to ensure success for their 
children. Leaders in each state and district have direct responsibility 
for how these shifts to increased access and opportunity occur so that 
they benefit and not harm children. Not all leaders have stepped up to 
accept that responsibility.
    My personal commitment to high achievement for all students has led 
me to work during most of the past decade supporting states as they 
build inclusive assessment and accountability systems. I do this as the 
team leader for national technical assistance at the National Center on 
Educational Outcomes (NCEO) at the University of Minnesota, which is 
funded by the Office of Special Education Programs (OSEP). At NCEO we 
have documented ways students with disabilities are included in 
educational assessment and accountability systems. I will summarize 
these briefly here.

II. Documentation of Inclusive Assessment Practices
    In the early 1990s, NCEO began documenting assessment practices in 
states, and found that most states included 10% or fewer of their 
students with disabilities in state assessments. Participation and 
accommodation policies were either non-existent or limiting. 
Participation rates in state assessments increased steadily during the 
1990s, in part because of the light being shed on the previous 
practices by our studies, and the belief that if students were not 
included in assessments, they may not be benefiting from school reform 
efforts taking hold in most states. Even with IDEA 97 requirements that 
all students were to be assessed, we did not see the push to full 
inclusion in all states. Today, assessment participation rates of 
students with disabilities are meeting NCLB requirements. Performance 
on assessments has also improved over the past three years. According 
to our survey of state directors of special education, increased access 
to the general education curriculum is a critical component of the 
improved performance of students with disabilities on state 
assessments.

III. Documentation of Inclusive Accountability Systems: Issues and 
        Challenges
    Just as all states did not move toward full inclusion of all 
students in assessment systems even though IDEA 97 required it, not all 
states were committed to fully including students in accountability 
systems as required in NCLB. In states and districts where IDEA 97 was 
not fully implemented, many students with disabilities had not been 
given access to or made progress in the general curriculum expected for 
all children. Students who have not been taught what is on the test 
generally do not perform well on those tests, and states and districts 
feared the consequences of reporting what they assumed would be poor 
performance. Some leaders suggested that students with disabilities 
could not learn the content, even though in many of their schools the 
approach of actually providing specialized instruction in that content 
had not as yet been tried. Thus, the shift to full accountability for 
all children was even more painful in some states and districts than 
the earlier shift to standards-based instruction and high expectations 
for all, which some of them had ignored.
    After NCLB accountability plans were first submitted and approved 
in 2003, we began to document how students with disabilities were 
included in state plans, and to track the data over time, just as we 
had done in the 1990s with assessment participation. I personally 
worked with a graduate student for several months, trying to sort out 
what we saw in the posted approved plans and what we saw in the state 
public reporting Web sites. We found numerous contradictions and 
missing data. Instead of the data becoming clear and illuminated, it 
was clear that accountability systems were opaque when they should have 
been transparent, and hidden when they should have been public.
    In addition we began seeing public statements by some educators and 
even policymakers that the students with disabilities subgroup was the 
only group that blocked many, some said most, schools from achieving 
required adequate yearly progress (AYP). We specifically mined data in 
the few states where their AYP reporting was clear and found that in 
schools where the students with disabilities subgroup was the only 
subgroup that was large enough to meet minimum N requirements for 
public reporting, that was true. That is, predominantly white, affluent 
schools had only one subgroup large enough to be reported, students 
with disabilities. But lack of transparency frustrated our efforts to 
generate systematic national profiles of what the status of subgroups 
by schools really was, and thus it was difficult to verify or refute 
the argument that students with disabilities as opposed to other 
subgroups were the ``cause'' or perhaps more aptly stated, the 
``indicator'' of many schools' need to improve.
    Another challenge became evident in the language being used. We 
heard what appeared to be pervasive misconceptions about who students 
with disabilities are and confusion about the purpose of IDEA funding 
for these students. Federal IDEA requirements focus on provision of 
specialized instruction, services, and supports so that students with 
disabilities achieve at high levels in the same challenging content as 
their same-grade peers. That foundational understanding of IDEA was all 
too often missing in the public discourse. Instead, there was rhetoric 
based on an erroneous assumption that a student eligible for special 
education services could be or even should be placed in a separate 
curriculum on a lower expectation track in the name of 
``individualization.''
    These erroneous assumptions underlie our discussions today. It is 
puzzling to hear this confusion given the plain language of IDEA and 
NCLB, but it is alarming given what we understand about the effects of 
expectations on what children learn. The literature on teacher 
expectations on student achievement is deep and strong: what teachers 
expect is typically what students do. For many educators, special 
education labels have become code words that say ``this child can't 
learn.'' What is frightening is that over the past 30 years that belief 
has become engrained even among parents, advocates, and policymakers. A 
few years ago, in a state task force meeting where the state 
accountability plan was being discussed, I heard a teacher say, ``Any 
fool knows those special ed kids can't learn the same stuff as other 
kids.'' We know that is not true. We have evidence to the contrary.
    We have a colleague at NCEO, Dr. Kevin McGrew, who is one of the 
authors of the Woodcock-Johnson III tests of achievement. He has tested 
the assumption that ``any fool knows those kids can't learn'' by 
looking at the academic achievement of students of varying measured 
IQs, a common measurement used for eligibility for the special 
education category of mental retardation. He has found, ``It is not 
possible to predict which children will be in the upper half of the 
achievement distribution based on any given level of general 
intelligence. For most children with cognitive disabilities (those with 
below average IQ scores), it is NOT possible to predict individual 
levels of expected achievement with the degree of accuracy that would 
be required to deny a child the right to high standards/expectations.''
    The bottom line is that 80% of students with disabilities, that is, 
98% of all students, do not have cognitive disabilities (called mental 
retardation in official disability categories) as their primary 
disability. My 31 year old daughter does have mental retardation, and 
she is a curious, engaged, life-long learner, so I struggle to 
understand how educators could systematically make assumptions about 
her ability to learn. I struggle to understand how educators could make 
those assumptions about the ability of all students with other 
disabilities as well, those who may have learning disabilities, speech 
language disabilities, vision, hearing, or any disabilities that may 
affect HOW a student learns, but like my daughter, need not 
dramatically affect WHAT the student learns. We have research and 
practice tested methods to teach all children well, but in some schools 
the collective will to do so has not yet been mustered.

IV. Accountability Plan Modeling: An Attempt to Generate Data
    When we realized that it was not possible to generate good quality 
data to understand effects of accountability systems on students with 
disabilities from public reporting documents due to lack of 
transparency, we turned to colleagues at the National Center for the 
Improvement of Educational Assessment, Inc. (NCIEA). They used existing 
state assessment databases to model the effects of common strategies 
being used in state accountability plans in the name of technical 
adequacy. Using actual assessment data from five states, they 
specifically looked at the practice of increasing the minimum number a 
state required prior to public reporting, as well as use of confidence 
intervals. Their central finding was that when the minimum subgroup 
size was set at 60 students, almost no schools include the performance 
of special education students, that is, the subgroup disappears from 
AYP calculations.
    Education Week demonstrated this effect by looking at five specific 
states: in California, with minimum subgroup of 100, or 50 if that 
makes up at least 15 percent of students tested, 92% of schools were 
able to report AYP without the disabilities subgroup reported; Florida, 
with a minimum subgroup of 100, or 30 if that makes up at least 15 
percent of students tested, had 42% of schools with no disability 
subgroup reported; Georgia, with minimum subgroup of 75, or the greater 
of 40 students or 10 percent of students tested, had 57% of schools 
with no disabilities subgroup reported; Ohio, with a minimum subgroup 
of 45 for students with disabilities (30 for other subgroups), had 96% 
of schools with no students with disabilities subgroup; and West 
Virginia, with minimum subgroup of 50, had 80% of schools with no 
students with disabilities subgroup. (Education Week, September 21, 
2005.) Now, almost a year later and with another set of proposed 
changes to accountability plans under consideration, it remains 
difficult to determine from publicly available data which states are 
truly holding schools and districts (and themselves) accountable for 
high achievement for students with disabilities.

V. What Are States Doing to Achieve the Goal of All Students to High 
        Standards?
    How can you judge whether a state is committed to the goal of all 
students being successful when the system is not transparent? Here are 
some questions you can pose to judge for yourself.
    A. What does the leadership say and do? The state director of 
special education should be carrying the banner of specialized 
instruction, service, and supports so that all children with 
disabilities are learning the same challenging content to the same high 
levels as their enrolled grade peers. HOW students with disabilities 
learn to high levels may be different; WHAT they learn must be the 
same. Do you hear that language? Sometimes we hear code words for lower 
expectations, such as ``these children'' need a ``special curriculum.'' 
We have heard chief state school officers say a variation of ``any 
fool'' quote cited above, which as pointed out, we have data to 
disprove. Consider this quote from a state education chief, which 
undermines the legal definitions of eligibility in IDEA: ``Students who 
appropriately meet the eligibility criteria for receipt of special 
education and related services are, by definition [sic, this particular 
leader's definition, not the definition in law], unable to reach 100% 
proficiency.'' In that state, determination of eligibility for IDEA 
services does not open the door to specialized instruction, services, 
and supports so that the student can achieve; eligibility for IDEA is a 
life sentence to low expectations and an alternate curriculum. Would 
you want that for your child?
    Instead, you should see and hear state leaders support educators at 
all levels in bringing every learner to the content, using evidence-
based teaching strategies to accelerate and scaffold the student's 
learning in order to provide access in spite of the effects of the 
student's disability. If schools, teachers, and students are 
struggling, there should be focused state-wide staff development and 
coaching to ensure every teacher and every child has the resources and 
tools needed to be successful.
    The Education Trust has quotes from educators that illustrate what 
I mean. Here are a few that distinguish between different beliefs.
    ``I have difficulty with the standards because they're so 
unattainable for so many of our students * * * We just don't have the 
same kids they have on Long Island or Orchard Park.'' Superintendent, 
New York October 21, 2002, The Buffalo News.
    Compare that quote reflecting low expectations to the following 
quote:
    ``With proper instruction, students here can blow other kids away 
in the humanities. The more you challenge them, the better they'll 
do.'' Dolores Edwards Sullivan, an English teacher in the predominantly 
African American Roosevelt school district, whose 11th graders are 
starting to earn higher marks on state Regents exams.
    Then again, listen to the low expectations in the following:
    ``It is so inflexible. If any group of kids fails to meet the 
standard, the whole school is labeled as failing.'' suburban 
superintendent (used to doing extremely well under old system of 
averages)
    Compare that to:
    ``At the end of the day, we are responsible for every child. Will 
we do it? Certainly. Will we look good early on? I doubt it.'' 
Superintendent, Wake County June 2, 2002 News and Observer (NC).
    Blaming and excuse-making reflects a lack of commitment to the goal 
of success for all students. Realistic recognition of the challenges of 
changing ingrained attitudes and beliefs that all children cannot 
learn, development of strategies for success and systematic 
implementation of those strategies, and cheerleading by the leadership 
to spur change reflect the leadership our children require to be 
successful. We are five years into meaningful reform under NCLB, and 
for many students with disabilities, they have just begun to be given 
access to the challenging curriculum. We need to stay the course to 
overcome years of low expectations and limited opportunities.
    B. What does the assessment system look like?
    The assessment system is the key building block of the 
accountability system. Do all the state assessment options support high 
standards for all students? You should see evidence of stakeholder 
involvement at all stages of development, documentation of how the 
state worked to build a system based on the highest expectations 
possible for your state's children, including challenging content, 
clear participation and accommodations guidelines that push high 
expectations, rigorous achievement standards for both regular and 
alternate assessments, and thorough reporting of results for all 
subgroups. Standards and assessment peer review processes do not make 
judgments of how high the standards are set in a state system. Instead, 
state citizens must make those judgments, and they need transparency to 
be able to do so.
    Do you see evidence of that involvement in your state system? Do 
you hear excuses for low level assessment options that have been 
developed with the rationale that ``some children just can't learn the 
challenging content'' resulting in tests that ensure those children 
score well to improve school AYP calculations? If this has happened, 
has anyone asked whether ``those children'' have been taught the 
challenging content through research-based teaching methods that allow 
them to accelerate their learning in order to benefit from the grade-
level curriculum to which they are entitled? Testing students on the 
curriculum they should be taught ensures they will be taught.
    C. What does the accountability system suggest? Are there separate 
minimum sizes for some subgroups under the guise that the numbers are 
``unstable?'' Does independent review of those technical rationales 
corroborate that understanding? How have the minimum n or percentage 
rules affected how many schools are actually held accountable for 
students with disabilities? How do any new proposals affect all 
subgroups? These are complex issues, but why do some states require 
large ``n'' sizes, plus percentages, plus confidence intervals when 
other states simply protect the privacy of the student, and expect the 
schools to be transparent in their performance?
    D. Where are the success stories and why? where students with 
disabilities are not successful, what are their learning opportunities? 
In the past years, several public groups have conducted studies to find 
where students are beating the odds of low expectations. These focus on 
minority and low socioeconomic status students; they do not focus on 
students with disabilities. The Donahue Institute at the University of 
Massachusetts specifically looked for schools in Massachusetts where 
students with disabilities were performing at high levels. They found 
that ``there is no single blueprint for advancing the achievement of 
students with special needs in socio-economically complex urban areas. 
However, to the extent that urban districts face a litany of common 
conditions and problems, the practices identified herein may be put to 
productive purpose in other districts, as well.'' The list below 
reflects the common themes of practice that emerged from these urban 
schools where students with disabilities were doing well. You need to 
ask whether your districts and schools reflect these characteristics, 
in the context of your state system.
    1. A Pervasive Emphasis on Curriculum Alignment with the 
Massachusetts Curriculum Frameworks
    2. Effective Systems to Support Curriculum Alignment
    3. Emphasis on Inclusion and Access to the Curriculum
    4. Culture and Practices that Support High Standards and Student 
Achievement
    5. A Well Disciplined Academic and Social Environment
    6. Use of Student Assessment Data to Inform Decision-Making
    7. Unified Practice Supported by Targeted Professional Development
    8. Access to Resources to Support Key Initiatives
    9. Effective Staff Recruitment, Retention, and Deployment
    10. Flexible Leaders and Staff that Work Effectively in a Dynamic 
Environment
    11. Effective Leadership is Essential to Success
    E. What do data on persistently low performing students tell us 
about our state, districts, and schools?
    In 2005, staff from NCIEA analyzed data from five states' 
assessments. Their analyses also included a closer look at the student 
performance of two states by categories of disability. They found that 
on a grade 4 math test, special education students showed performance 
across the full range of scale scores; a significant number of general 
education students scored among the lowest three percent of students; 
the percent of special education students scoring proficient varied 
significantly across disability categories; and even within disability 
categories, the percent of students found to be proficient varied 
dramatically across states.
    In summary, the lowest performing students are not all students 
with disabilities, and students with disabilities perform at all levels 
of achievement, with performance by category of disability varying 
dramatically from state to state.
    In the fall of 2005, the Colorado Department of Education looked at 
results from two years of the Colorado Student Assessment Program 
(CSAP) tests in reading and math. The legislatively-mandated study (HB 
05-1246) showed that not all of the lowest performers on the state 
assessment were students with IEPs, and that many were students without 
disabilities. Looking at growth over time for the lowest performing 
students, those with IEPs showed considerable increases in scores, at 
least for those they were able to match scores for across years. They 
followed up with site visits to schools where student with IEPs were 
achieving well versus those where they were not.
    They found that schools with high achievement of students with 
disabilities were systematically supporting intensive, targeted, 
research-based instruction through training, resources, and other 
supports for teachers and students.
    Ask these kinds of questions in your states. Do your state, 
districts, and schools know who, by student characteristics, are 
consistently low performing students, within and across districts? How 
do these data correlate with the opportunities students have to learn 
the challenging grade-level content? What training, resources, and 
other supports are there in these schools for teachers and students? 
Understanding the answers to these questions is essential for you to 
know whether your state, your district, your school is doing what it 
can to achieve the goal of high standards reached by all.

VI. One Parent's Conclusion
    Should states, districts, and schools be held accountable for the 
learning of all students, including students with disabilities? YES!!! 
Lowering standards for some students cannot be the solution to the 
challenges educators face in helping them reach proficiency. We have 
ample research to show that educators do not have the ability to 
predict which students could learn if taught well. Our only option is 
to teach them all assuming they can succeed, and finding out whether 
they all do succeed after we have done all we can do. Pushing children 
out of the accountability system, or watering it down, is to leave them 
behind. The questions that I listed are a start for sorting out who 
really means all when they say all.
    If state, district, or school leaders say that they cannot report 
assessment results for some group because of low numbers, or that they 
need additional flexibility, I would welcome a full and public report 
of precisely what opportunities they are providing to ensure that those 
learners are supported. Is their learning provided on scaffolds to lift 
them to the content, so that they are all appropriately instructed in 
their enrolled grade-level curriculum? I would expect to see detailed 
public reporting of precisely which children they are struggling to 
teach, by subgroup, and how that changes over time. Is it the same 
children year after year? Do we see movement in and out of these low-
performing groups? How does that relate to their documented 
interventions and research based teaching? Remember, states like 
Colorado have analyzed what they call ``persistently low-performing'' 
students, and have found many of those students do not have 
disabilities. Who are these students, and why are they struggling? How 
would all of these children be affected by any proposed 
``flexibility?'' How will they monitor the effects of this flexibility 
on these children's opportunity to learn over time?
    Do you recall a president who told us we must ``trust but verify'' 
during an important stage of delicate policy negotiations? This is yet 
another situation where that applies. Have schools in your state 
implemented systematic prevention and intervention strategies? Have 
they established progress monitoring procedures K-12 to ensure that not 
only the basic skills but the full range of the expected content is 
being taught well in ways all students can demonstrate proficiency? 
Have they used their IDEA and Title I funding wisely to support the 
specialized instruction, services, and supports so that the children 
are successful, or did they use IDEA categories to justify shunting 
children into a separate curriculum?
    How do you know?
    Public and transparent reporting of these complex issues, with 
independent verification, is an essential part of discussions about 
accountability systems. We are five short years into a robust 
implementation of a high expectation system for all children. At best, 
many students with disabilities have had just a few years to overcome 
many, many years of low expectations and separate curricular targets. 
Federal IDEA requirements focus on provision of specialized 
instruction, services, and supports so that students with disabilities 
achieve at high levels in the same challenging content as their same-
grade peers. Students with disabilities may need varied methods in HOW 
they learn; WHAT they learn must be the same. NCLB requirements have 
ensured that schools are accountable for that learning, and it is 
essential for students with disabilities that the requirements of NCLB 
continue. Together, NCLB and IDEA can help ensure that all of our 
children succeed.
                                 ______
                                 
    Mr. Castle. Dr. Neuber.

  STATEMENT OF KRISTINE NEUBER, GRADUATE SCHOOL OF EDUCATION, 
                    GEORGE MASON UNIVERSITY

    Ms. Neuber. Thank you. I want to thank the committee for 
allowing me to testify today. Before I begin I would like to 
take this opportunity to thank Chairman McKeon and Mr. Miller 
for leading this committee in the reauthorization of the 
Assistive Technology Act of 2004. This is a modest Federal 
program that has a significant impact on helping special 
education students reach their potential.
    I come to you today to share my perspective as a former 
special education student and special education teacher. I have 
a somewhat historical perspective, having experienced special 
education in its infancy and through a lot of iteration. I was 
born with cerebral palsy. At a young age I had significant 
speech and language difficulties and mobility issues primarily 
affecting my leg. Having cerebral palsy has never made me feel 
limited. My experiences in special education has.
    I entered special education at the age of 3 in 1972. 
According to Connecticut State law, guided by the passage of 
the Education of the Handicapped Act in 1970, now the 
Individuals With Disabilities Education Act, I was eligible for 
services through the public school system. I received special 
education. I received speech and language services during the 
1972-1973 school year, and preschool services the year after.
    I was included in regular education classes throughout 
elementary school with pull-out services for reading 
occupational therapy. My school also provided an adaptive PE 
class. This class was intended to provide me with an 
environment where I could feel success, but at the same time I 
felt segregated. I felt different. And it was not until sixth 
grade that I began to be segregated into special education 
classes for math, English, and history due to my learning 
disability.
    As a special education teacher between 1992 and 1995, I saw 
how special education services are implemented here today. I 
also spent several years as an assistive technology consultant 
who visited special education classes. In my opinion, many 
aspects of the special education system have not changed. It is 
still viewed in large part as a place and not a service. It is 
still segregating and labeling students and seems to 
subconsciously expect less from students receiving special 
education.
    The principles of high expectations and accountability in 
No Child Left Behind are moving special education forward from 
access to accountability. It has the ability to make a 
significant improvement in the experiences and successes of 
students with disability.
    In high school, I took an opportunity to take a general 
education math class, against the recommendation of my teacher. 
I earned a C. The achievement of that C in general education 
took me much further in knowledge and self-esteem than the easy 
A in special education ever did. It is not a small thing to be 
separated from the general population and does not go unnoticed 
by students.
    The students who learn need to learn to work through 
difficult material. It forces them to develop strategy. There 
is nothing more powerful than succeeding at something you once 
viewed impossible. The principles of No Child Left Behind 
require that all students be tested, and schools are held 
accountable for what they are learning. With this expectation 
comes access to the general curriculum. A watered-down 
curriculum, often offered in special education classes, will no 
longer suffice. Instead, special education and general 
education teachers should be working together to provide 
accommodations identified in the individualized educational 
plans. These services might include assistive technology, 
alternative modes of accessing the materials, or extended time 
to complete tasks.
    I know firsthand the power of assistive technology and how 
it can open doors previously closed. I did well in college 
through the methods I have learned and developed over time to 
overcome my learning disability.
    I dropped out of--once I entered the Ph.D. Program, I found 
the amount and level of assigned reading material to be a 
mountain that I could not climb. I dropped out of the program 
but reentered a year and a half ago when I found a piece of 
assistive technology that could help me keep up with the 
reading and reclaim my dream of earning a Ph.D.. I often 
wondered how many students sit in the classroom looking at the 
same mountain and do not have access to the assistive 
technology that could help them climb.
    I see that I am beginning to run out of time, so I would 
like to offer a couple of recommendations to the committee.
    First, please stay the course and continue to include 
students with disabilities in the accountability system 
incorporated into No Child Left Behind.
    And No. 2, please provide additional technical assistance 
for teachers to help them gain knowledge and access to the 
appropriate assistive technology and methods used to develop 
assessments effectively and truly measure the knowledge of 
students with disabilities.
    I would sincerely like to thank the committee for giving me 
the opportunity to testify about this very important piece of 
legislation. Please understand that your leadership makes a 
significant impact in the lives of the 6 million students 
receiving special education today. Thank you.
    Mr. Castle. Thank you, Dr. Neuber. We appreciate your 
testimony.
    [The prepared statement of Ms. Neuber follows:]

 Prepared Statement of Kristine Neuber, Graduate School of Education, 
                        George Mason University

    Thank you Chairman McKeon, Mr. Miller and members of the committee 
for the opportunity to testify today.
    My name is Kristine Neuber. I am a doctoral student at George Mason 
University in special education. I am also a professional faculty 
member with the Graduate School of Education and act as the Assistive 
Technology Coordinator responsible for providing assistive technology 
accommodations for all students and employees with disabilities at the 
University.
    Before I begin, I would like to take this opportunity to thank you 
for your leadership Chairman McKeon and Mr. Miller in leading this 
committee to reauthorize the Assistive Technology Act of 2004. This is 
a modest federal program with a significant impact in assisting special 
education students in reaching their potential.
My Perspective
    I come before you today to share my perspectives as a former 
special education student and as a special education teacher. I have a 
somewhat historical perspective having experienced special education 
law in its infancy and through much iteration. I was born with cerebral 
palsy (CP). At a young age I had significant speech and language 
difficulties and mobility issues primarily affecting my legs. Having 
cerebral palsy never made me feel limited--my experiences in special 
education did.
    I entered special education at the age of 3 in 1972. According to 
Connecticut state law, guided by the passage of the Education of the 
Handicapped Act of 1970, now the Individuals with Disabilities 
Education Act (IDEA), I was eligible for services through the public 
school system. I received speech and language services during the 1972-
73 school year and preschool services the year after.
    I was included in regular classes throughout elementary school with 
pull-out services for reading and occupational therapy. My school also 
provided an adapted physical education class. The class was intended to 
provide an environment where I could be successful, but the minute I 
was segregated from the general population I felt different.
    It was not until sixth grade that I began to be segregated into 
special education classes for English, math and history due to a 
learning disability.
    As a special education teacher between the years of 1992-1995 I saw 
how special education services are implemented today. I also spent 
several years as an assistive technology consultant who regularly 
visited special education classrooms. In my opinion, many aspects of 
the special education system have not changed significantly. It is 
still, in large part, viewed as a place and not a service. It is still 
segregating and labeling students, and seems to subconsciously expect 
less from students receiving special education. The principles of high 
expectations and accountability in the No Child Left Behind Act are 
moving special education forward from access to accountability and has 
the ability to make significant improvements in the experiences and 
success of students with disabilities today.
The Power of High Expectations
    In high school I took an opportunity to be in a general education 
math class against my teacher's recommendation. I earned a C. The 
achievement of a C in the general education classroom took me much 
further in knowledge and self-esteem than the easy A that I got in 
special education. It is not a small thing to be separated from the 
general student population and it does not go unnoticed by students.
Access to the General Curriculum
    Students need to learn how to work through difficult material. It 
forces them to develop strategies to overcome their disabilities. They 
should understand that they may not succeed at first, but dealing with 
difficult challenges is a part of life and students with and without 
disabilities should not be protected from them. There is nothing more 
powerful than succeeding at something you once viewed impossible. The 
principles of No Child Left Behind require that all students be tested 
and schools be held accountable for what they are learning. With this 
expectation comes access to the general curriculum. A watered-down 
curriculum often offered in special education classes will no longer 
suffice. Instead, special and general education teachers should be 
working together to provide the needed accommodations and services 
outlined in student Individualized Educational Plans (IEPs). These 
services might include assistive technology, alternative modes of 
accessing the material, or extended time to complete tasks.
The Power of Assistive Technology
    I know firsthand how assistive technology can open doors previously 
closed. I did well in college with the methods I had developed over 
time to help me overcome my learning disability. Once I entered the 
Ph.D. program, I found the amount and level of the assigned reading 
material to be a mountain I was not able to climb. I dropped out of the 
program, but re-entered a year and a half ago when I found a piece of 
assistive technology that has allowed me to keep up with my reading and 
reclaim my dream of earning a Ph.D. I often wonder how many students 
sit in the classroom looking at that same mountain and do not have 
knowledge of or access to the technology that could help them climb it.
Valid and Reliable Assessments
    Poorly designed assessments can also present obstacles for students 
with disabilities, and can cause the results to be invalid. Assessments 
should be designed to reduce barriers caused by disabilities allowing 
students to use their strengths to answer questions ensuring that their 
knowledge is effectively evaluated. There has been a fair amount of 
research in this area showing the promise of universally designed 
assessments to more accurately assess the knowledge of all students 
with and without disabilities. I have included some of these studies as 
an appendix to this testimony. If assessments are invalid we really 
have no way of knowing what students are learning and therefore cannot 
in all fairness hold schools accountable.
Recommendations
    As the committee convenes to deliberate over the reauthorization of 
this Act, I would like to offer two recommendations:
    (1) Stay the course by continuing to include students with 
disabilities in the accountability systems incorporated into No Child 
Left Behind. It is extremely important for students to have access to 
the general curriculum in order to truly assess their knowledge and 
give them the opportunity to succeed in life on equal footing with 
their non-disabled peers. That is, I believe, the ultimate goal.
    (2) Provide additional technical assistance for teachers to help 
them gain knowledge and access to appropriate assistive technology and 
methods used to deliver assessments effectively and truly measure the 
knowledge of students with disabilities. Additional research is needed 
to ensure that all assessments given to students are valid and 
reliable.
    I would like to sincerely thank the committee for giving me the 
opportunity to testify and share my views about this very important 
piece of legislation. Please understand that your leadership makes a 
significant impact on the lives of the six million students receiving 
special education services today.
                                 ______
                                 
    Mr. Castle. Mr. Soifer.

 STATEMENT OF DON SOIFER, EXECUTIVE VICE PRESIDENT, LEXINGTON 
                           INSTITUTE

    Mr. Soifer. Mr. Miller and members of the committee, thank 
you for the opportunity to participate in the hearing this 
morning.
    The No child Left Behind Act and the resulting shift to 
formula funding have changed the education business of teaching 
English language learners in schools around the United States 
in some fundamental ways.
    Since it became law, every State has upgraded its 
monitoring of the academic progress made by English language 
learners. A common trend has been the development and 
implementation of a single statewide method for identifying, 
assessing, and reclassifying English language learners. Under 
the supplemental educational services under the law there has 
been a real increase since NCLB began, and the number of 
English learners are receiving free tutoring, largely thanks 
due to the increased capacity and private provider.
    Another example is that No Child Left Behind requires that 
the teachers of students in special language programs be fluent 
in English themselves. While that may have seemed a somewhat 
obvious requirement at the time, sometime in 2003 some four 
dozen teachers were dismissed because they had not been fluent 
in English--bilingual education teachers. It has been a 
commonly heard complaint about NCLB that schools that are not 
making adequate early progress are doing so largely because of 
the failures of these two subgroups.
    We are here today to discuss English learners and students 
in special education. But increasingly the evidence 
demonstrates this is not the case. According to data released 
by the Federal Development of Education earlier this year of 
schools nationwide that did not make AYP, only 4.2 percent 
failed to do so because of the achievement of English language 
learners. Only 13.2 percent failed because of the achievement 
of students in special education, and only 1 percent failed to 
make AYP because of both of these two groups and no other 
factors.
    As I testified to this committee 7 years ago, before NCLB, 
under the Title VII old Bilingual Education Act, data on 
student performance often showed very low levels on student 
achievement, including toward English language fluency. 
Selective reporting and selective omission of test scores was 
quite common under the competitive grant process. There were 
Federal funded programs that failed to demonstrate that a 
single child made any measurable progress toward English in a 
given year, and frequently the curricula, frankly, reflected 
this lack of focus on achievement and results.
    Using the new data, one area that NCLB has shown to be 
problematic is the rate at which limited English proficient 
students are reclassified as proficient in English.
    Often in States with large LEP populations like California, 
Texas, and Illinois, there has been a large, sometimes dramatic 
increase in test scores particularly by young students. The 
rate of transition remains low, between 8 and 10 percent. 
Regardless of what method of language instruction you prefer, 8 
percent transition rates can be viewed as scandalously low.
    Finally, I would respectfully submit to the committee three 
policy recommendations that I hope you may consider as you 
continue with your reauthorization process.
    No. 1, the current process for determining a starting point 
for adequate yearly progress can produce unrealistic 
objectives, particularly for the lowest performing schools and 
especially those that have large populations of English 
learners. I see this as an unintended consequence that could be 
solved by changing the formula to eliminate the requirement 
that starting points be linked to the achievement of schools at 
the 20th percentile of achievement in the State.
    No. 2, as Mr. Miller correctly pointed out, ensuring that 
reporting requirements and privacy concerns are not misused so 
that students and groups of students are not excluded from the 
NCLB accountability systems.
    And, finally, currently the use of testing accommodations 
for English learners varies greatly from State to State. Little 
scientific research exists to determine the validity of these 
testing accommodations. And as Federal funding for education is 
linked to student achievement, it is very important that we 
understand that these accommodations be valid.
    Thank you, Mr. Chairman, and the committee for your time.
    Mr. Castle. Thank you, Mr. Soifer. We appreciate that.
    [The prepared statement of Mr. Soifer follows:]

 Prepared Statement of Don Soifer, Executive Vice President, Lexington 
                               Institute

    Chairman McKeon, Chairman Castle, Congressman Miller, and Members 
of the Committee, thank you for the opportunity to participate in this 
morning's hearing.
    The No Child Left Behind Act (NCLB) and the resulting shift to 
formula funding have changed the education business of teaching English 
Language Learners (ELLs) in schools around the United States in some 
fundamental ways.
    Under NCLB, states and school districts are now responsible for 
showing progress by students who are ELLs under the requirements of 
both Title I and Title III. Students are tested both for academic 
content as well as for progress toward English fluency. States must 
also track and report on the number of students attaining English 
proficiency each year.
    Since NCLB became law, every state has upgraded its monitoring of 
the academic performance of English language learners. A common trend 
has been toward a single statewide method for identifying, assessing 
and redesignating ELLs. Previously these had varied from school 
district to school district and defied comparison of student 
performance.
    NCLB requires that all teachers in any language instruction program 
for English learners be fluent in English. While this may sound like an 
obvious requirement, it was not always the case. In Massachusetts in 
2003 some four dozen bilingual education teachers were dismissed 
because they were not fluent in English--an action which their union 
challenged in court.
    It has become a commonly-heard complaint about NCLB that schools 
are failing to make Adequate Yearly Progress largely because of 
unrealistic requirements in the law for English language learners and 
students with disabilities. There have already been several 
alternatives plans introduced that would each have the bottom line of 
reducing accountability for academic results for both of these 
subgroups, or even removing them from the NCLB accountability system. I 
have not seen a single alternative that increases accountability for 
results in these programs.
    But increasingly, evidence fails to support this observation. 
According to U.S. Department of Education data released in February of 
this year, of those schools that did not make Adequate Yearly Progress 
nationally, just 4.2 percent missed because of the achievement of the 
English Learner subgroup only, 13.2 percent missed because of the 
achievement of students with disabilities only, and 1.0 percent missed 
because of the achievement of both of these groups but not for any 
other reasons.
    Further, as was documented recently by the Aspen Institute, 
increasing numbers of students in these two subgroups are being 
excluded from NCLB accountability because of a loophole in the state 
reporting requirements due to privacy concerns.
    With the Committee's permission, I would like to mention some 
additional observations about NCLB that you are less likely to read 
about in your daily press clippings. All told, there has been a major 
upgrade in the transparency and accountability for academic progress 
for English language learners as a result of the reforms of NCLB. There 
is no shortage of upward trends where students' test performance is 
concerned, either. And my own unscientific observation is that spending 
seems more centered on the classroom.
    There has even been an increase in the number of ELLs receiving 
free tutoring under the law's Supplementary Education Services 
provision since NCLB was first implemented, thanks in large part to an 
increased capacity to serve them among both public and private sector 
providers. To mention one positive example, a community-based 
afterschool tutoring provider I had the chance to work with in Chicago, 
Julex Learning Systems, has expanded to serve thousands of Latino ELLs 
over the past 3 years, and produced average gains in English reading of 
over one grade level of progress per student.
    As I testified to this Committee in 1999, before NCLB, data on 
student performance often revealed very low amounts of progress, 
including progress toward English fluency. Selective omission of test 
scores was common in reporting on competitive grants. There were 
federally-funded programs that failed to demonstrate that a single 
child demonstrated any measurable progress toward English fluency. The 
curricula for students and also for professional development programs 
for teachers frankly reflected the program's lack of emphasis on 
results.
    One area the new accountability of NCLB has shown to be a problem 
is the low rate at which English language learners are being 
reclassified as proficient in English. Often in states like California, 
Illinois and Texas, test scores for English learners have increased 
while these transition rates remain between 8 and 10 percent.
    In Illinois between 2002 and 2004, 50 percent of English learners 
scored at the Proficient and Advanced levels in math, and 37 percent 
did so in English reading and language arts. But fewer than 9 percent 
of English learners were redesignated as proficient in English.
    California's schools Superintendent Jack O'Connell was describing 
this ``noticeable gap'' in his own state last year when he remarked 
that ``it is critical that California school districts continue to 
review their reclassification procedures as well as the current 
academic support they provide to English learners.'' Transition rates 
low represent a poor track record, regardless of what method of 
teaching English you subscribe to.
    Finally, I would respectfully suggest that the Committee consider 
the following policy recommendations as it continues to examine these 
critical provisions of NCLB:
    1. The current formula for determining starting points for Adequate 
Yearly Progress can produce unrealistic objectives for the lowest-
performing schools, especially those with large language-minority 
populations. I see this as an unintended consequence that could be 
solved by changing the formula to eliminate the requirement that 
starting points match the performance of schools at the 20th percentile 
in the state.
    2. Ensuring consistency in reporting requirements so that privacy 
concerns are not misused to exclude students or groups of students from 
the NCLB accountability system.
    3. Currently the use of different, individual testing 
accommodations when giving standardized tests to English Language 
Learners varies greatly from state to state. Little scientific research 
exists on the validity of these different accommodations. Because NCLB 
links federal education dollars to students' performance on these 
tests, it is essential that permitted accommodations be both valid and 
consistent.
    I deeply appreciate the opportunity to share these observations 
with you to today and look forward to any questions you may have. Thank 
you.
                                 ______
                                 
    Mr. Castle. Mr. Buchanan.

  STATEMENT OF KEITH BUCHANAN, ENGLISH FOR SPEAKERS OF OTHER 
   LANGUAGES OFFICE COORDINATOR, FAIRFAX COUNTY, VA, PUBLIC 
                            SCHOOLS

    Mr. Buchanan. Good morning. I too would like to thank the 
committee for this opportunity to testify today about the 
academic impact of No Child Left Behind on the academic 
achievement of LEP students in Fairfax County, Virginia.
    Today I would like to address three issues: the value of 
the new LEP subgroup for accountability; the impact of the 
assessment requirements; and changes in our instruction.
    Fairfax is the 12th largest school system in the United 
States and has experienced a demographic shift that is fairly 
steady. And today, one-third of Fairfax households speak a 
language other than or in addition to English. We educated over 
30,000 LEP students last year, a highly diverse group speaking 
almost 100 different home languages, from more than 70 
countries.
    The accountability systems established by NCLB which 
require reporting by subgroups have had an overall positive 
impact on the Fairfax student. Like the Lau v. Nichols, Supreme 
Court case of the 1970's, the reporting of test results of the 
LEP subgroup focuses on the unique educational needs of 
students who are learning complex academic content while 
simultaneously acquiring English. With 3 years of LEP test data 
now available, our teachers can review specific information on 
the performance of their LEP students and then make adjustments 
to their instructional approaches for the subsequent year.
    The good news is that in each of the 3 successive years, 
reading and math scores for LEP scores in Fairfax has improved 
that sunny picture; however, is clouded by uncertainty, since 
Virginia's numerical targets of the percentage of students 
passing the tests will increase every year.
    Because our schools now fully understand the LEP scores are 
part of their AYP calculation, we have seen an increase in 
teachers' accountability for their students' success. This 
commitment by teachers is crucial since LEP students continue 
to learn English after they leave specialized ESOL classes. 
Commonly, Fairfax students remain in ESOL for about 2 to 4 
years, yet the complex academic English needed to succeed on 
standardized tests takes at least 5 to 10 years to acquire.
    Every Fairfax teacher, from kindergarten to high school 
chemistry, works with LEP students; and because of NCLB, we 
feel that they now understand that they have an even greater 
stake in the students' success.
    NCLB has set ambitious goals for students, with timeframes. 
Our challenge is for the expectation that LEP will learn 
English at the same rate. It is those who have had substantial 
formal schooling in their home countries who will acquire 
English relatively rapidly. Yet there are also thousands of 
other students who have had interrupted formal education. Wars 
in Africa, Central America, Afghanistan and Iraq have sent 
thousands of students to the U.S. Classroom with little or no 
prior schooling.
    I once taught a group of 17 Afghan teens who had been 
soldiers for pro-U.S. forces during their adolescence, and 
their education had taken place on the battlefield. And in our 
beginning lesson we had to focus on basics such as learning to 
use scissors and handwriting. They had had little exposure to 
school, but NCLB requirements would have treated them the same 
as any other student who had gone to school their entire lives. 
After taking assessments in English, their scores would still 
be included in their school's AYP calculation after just 1 year 
in Fairfax.
    The challenges of providing fair, accurate, and reliable 
reading and math assessments remain daunting when our students 
take Virginia's language tests. Those assessments are given in 
English. Depending on the student's level of English 
proficiency, a word problem focusing on solving a quadratic 
equation is not a test of that student's math knowledge at all. 
It is a test of English comprehension. So the student's math 
score is not reliable.
    We are concerned that the requirement that all students 
take the same reading and math test and their scores be 
included in AYP calculations after just a year in school, 
regardless of their level of English, does not reflect what 
research has shown about appropriate assessment for LEP 
students.
    NCLB has had a far-reaching impact on how and what we teach 
as well. The legislation provided Virginia with the impetus to 
revise its English Language proficiency standards. And at the 
national level the ESL Teachers Association has just published 
new standards for English language learners in grades pre-
kindergarten through 12. The TESOL standards not only 
demonstrate how to implement instruction in English, but they 
also focus on instruction for LEP students in math, science, 
and social studies classes.
    And finally I want to emphasize the value of Title III 
funding for our LEP students of Fairfax. With Title III funds, 
we began a dozen early literacy programs to teach parents of 
LEP preschoolers to prepare their students for kindergarten and 
English. And as our LEP population continues to grow, it is 
critical that Federal funding keep pace with this fastest 
growing subgroup so we can maintain valuable instruction 
programs for LEP students.
    I want to thank the committee for this opportunity to 
review the benefits of NCLB by describing Fairfax's commitment 
to use the provisions of the law as we work to close the 
achievement gap.
    Mr. Castle. Thank you.
    [The prepared statement of Mr. Buchanan follows:]

  Prepared Statement of Keith Buchanan, English for Speakers of Other 
    Languages Office Coordinator, Fairfax, VA, County Public Schools

    My name is Keith Buchanan, Coordinator in the English for Speakers 
of Other Languages (ESOL), Office of Fairfax County Public Schools, 
Virginia. I would like to thank the committee for this opportunity to 
discuss the impact of No Child Left Behind on the academic achievement 
of Limited English Proficient (LEP) students in our schools. Today, I 
would like to address three issues: the value of the new LEP subgroup 
for accountability, the assessment requirements, and changes in our 
instruction. Fairfax County, the twelfth largest school system in the 
U.S., has experienced a steady demographic shift, and today, one third 
of Fairfax households speak a language other than or in addition to 
English. We educated over 30,000 LEP students last school year, a 
highly diverse group speaking almost 100 different home languages from 
more than 70 different countries.
    The accountability systems established by NCLB which require 
reporting by subgroups have had an overall positive impact on the 
education of Fairfax LEP students. Like the Lau v. Nichols Supreme 
Court case of the 1970's, the reporting of test results of the LEP 
subgroup focuses on the unique education of students who are learning 
complex academic content while simultaneously acquiring English. With 
three years of LEP test data now available, teachers can review 
specific information on the performance of their LEP students and then 
make adjustments to their instructional approaches for the subsequent 
year. The good news is that in each successive year, reading and math 
scores for LEP students in Fairfax have improved. That sunny picture, 
however, is clouded by uncertainty, since Virginia's numerical targets 
of the percentage of students passing the tests will increase every 
year.
    Because schools fully understand that LEP subgroup scores are part 
of their AYP calculation, we have seen an increase in teachers' 
accountability for their LEP students' success. This commitment by 
teachers is crucial, since LEP students continue to learn English for a 
long period after they leave specialized ESOL classes. Commonly, 
Fairfax students remain in ESOL for about two to four years, yet the 
complex academic English needed to succeed on standardized tests takes 
at least 5 to ten years to acquire. Every Fairfax teacher, from 
kindergarten to high school Chemistry, works with LEP students, and 
because of NCLB, we feel that they now understand that they have an 
even greater stake in the students' success.
    NCLB has set ambitious goals for student achievement with specific 
timeframes. Our challenge, however, is the implicit expectation that 
all LEP students will learn English at the same rate. Those who have 
had substantial formal schooling in their home countries and languages 
will acquire English relatively rapidly, yet there are also thousands 
of other students who have had interrupted formal education. Wars in 
Africa, Central America, Afghanistan and Iraq have sent thousands of 
students to our classrooms with little or no prior schooling. I once 
taught a group of seven Afghan teens who were resettled after having 
been soldiers for pro-U.S. forces during several years of their 
adolescence. Their education had largely taken place on the 
battlefield, not in school, and we focused on basics such as using to 
learn scissors and handwriting. They had had little exposure to school, 
yet NCLB requirements would have treated them the same as any other 
students who had gone to school all their lives. After taking 
assessments in English, their scores would still be included in their 
school's AYP calculation after just one year in Fairfax.
    The challenges of providing fair, accurate and reliable reading and 
math assessments remain daunting. When our students take Virginia's 
Standards of Learning tests, the obvious challenge is that those 
assessments are given in English. Depending on a student's level of 
English proficiency, a word problem focusing on solving a quadratic 
equation is not a test of that student's math knowledge at all--it's a 
test of English comprehension, so the student's math score is not 
reliable. We are concerned that the requirement that all students take 
the same reading and math tests and their scores be included in AYP 
calculations after just a year in school, regardless of their level of 
English, does not reflect what research has shown about appropriate 
assessment for LEP students.
    NCLB has had a far-reaching impact on how and what we teach, as 
well. The legislation provided Virginia with the impetus to revise its 
English Language Proficiency Standards. And, at the national level, the 
ESL teachers' association, Teachers of English to Speakers of Other 
Languages, TESOL, has just published new standards for English language 
learners in grades pre-kindergarten through 12. The TESOL standards not 
only demonstrate how to implement instruction in English, but they also 
focus on instruction for LEP students in math, science and social 
studies classes.
    Finally, I want to emphasize the value of Title III funding for LEP 
students in Fairfax. For example, with Title III, we began a dozen 
Early Literacy programs to teach parents of LEP preschoolers to prepare 
their children for kindergarten literacy. Last year, using Title III 
funds, we offered a graduate-level course to help more than 200 math, 
science, social studies and English teachers differentiate their 
instruction for LEP students. And, as our LEP population continues to 
grow, it's critical that federal funding keep pace with this fastest 
growing subgroup so we can maintain valuable instruction programs for 
LEP students.
    I want to thank the committee for this opportunity to review the 
benefits of NCLB by describing Fairfax's commitment to use the 
provisions of the law as we work to close the achievement gap.
                                 ______
                                 
    Mr. Castle. Ms. McLeod.

STATEMENT OF MARGARET McLEOD, EXECUTIVE DIRECTOR OF THE OFFICE 
  OF BILINGUAL EDUCATION, DISTRICT OF COLUMBIA PUBLIC SCHOOLS

    Ms. McLeod. Good morning to the members of the committee 
and to my colleagues on the panel. Thank you for allowing us 
the opportunity to share with you some of our experiences in 
implementing NCLB for English language learners and perhaps to 
offer some suggestions to improve this law.
    First of all, NCLB has had amazingly positive benefits for 
English language learners. One of the benefits that it has had 
is that our parents are no longer ignored. My office is charged 
with doing transitions and interpretations for the district; 
and whereas before we would get requests for some requests for 
translation of vital documents, now central administration and 
school staff just routinely send all kinds of stuff to my 
office to be translated. And I think this is a direct result of 
the emphasis on parent involvement from NCLB.
    The other important effect is that schools have to educate 
everyone. Schools used to do a fabulous job of educating 85 
percent of their kids, but if you were among the unlucky 15 
percent that happened to be English learners or kids with 
disabilities, you didn't necessarily get a good education. Now 
we have to educate everybody to really high standards.
    As a Title III director, I don't feel ignored anymore. And 
the reason is because if you are exempt from accountability 
provisions you don't exist; while we now exist because 
everybody has to educate our kids. The reporting on academic 
achievement has finally led to real school reform.
    Our teachers, we have really changed the way we deliver 
professional development programs and schools have had to 
really change the organization of the delivery of instructional 
services so that kids are educated where they have access to 
the content standard and can really succeed to high levels.
    We feel that data is really the keystone to accountability. 
So please, please, do not in any way weaken those provisions in 
the law. The segregated data allows us to see the performance 
of the subgroups, and that is a critical piece from NCLB; and 
finally, the NCAOs have focused the attention to districts of 
the development of English language deficiencies.
    As in any law, I think this is a good time to obviously 
look at some changes, and I think there are some that would 
really improve the law. One is--this is not a change--but one 
is to really maintain the strong accountability provisions by 
keeping the desegregated data requirements. Please consider 
establishing uniform subgroup numbers across the States for 
purposes of consistency and reporting. And I would keep those 
numbers on the low side. There is some redundancy involved in 
the reporting of AMAOs. I am not going to get into that because 
I talked about that in my testimony, but that might be 
something for the committee to address as the law is being 
reauthorized.
    I would ask you to consider more flexibility in this 
teacher fluency requirement as pertains only to dual language 
programs. You know these programs have increased greatly in 
popularity over the last few years. But teachers who are 
teaching not in English but in the target language, sometimes 
have difficulty meeting the teacher fluency requirements in 
English, so some flexibility in that area would be greatly 
appreciated.
    Consider other measures of AYP that reflect the reality of 
the population of English language learners. These kids come 
into our schools with not necessarily the types of skills and 
background that other kids have. And so it is going to take 
them a while to reach full levels of proficiency. So I think 
the AYP requirements are not realistic.
    Please consider funding new concepts to develop tests of 
academic achievement, either in native language and/or in 
English, but that yield better results for all.
    And then, finally, I don't think that there is any Title 
III director worth his or her salt that would not put in a 
major plug for more funding for Title III. Please, please 
consider more funding for Title III. As it is right now, in the 
District we are receiving about $175 per student for Title III 
funds. We have done amazing, amazing things with Title III 
funds. We know how to educate English language learners. We 
know how to teach them English. We know how to get them to 
achieve at high academic standards, and we will do that but we 
need your help. So please consider really increasing the 
funding for Title III, and I really appreciate your willingness 
to listen to our concerns. Thank you.
    Mr. Castle. Thank you, Ms. McLeod.
    [The prepared statement of Ms. McLeod follows:]

  Prepared Statement of Margaret R. McLeod, Executive Director of the 
   Office of Bilingual Education, District of Columbia Public Schools

    My name is Margaret McLeod and I am the Title III director for the 
District of Columbia as well as the bilingual director for DC Public 
Schools, the largest of 48 local education agencies in DC. 
Approximately, 84% (4,275) of English language learners (ELL) in the 
District are served by DCPS; the rest (approximately 800) are served by 
charter schools. DC serves ELLs through a wide range of service 
delivery models from thriving dual language schools to English as a 
Second Language instruction in schools with small numbers of ELLs. 
Today, I would like to talk about the impact of No Child Left Behind on 
English language learners.

Positive Impact of No Child Left Behind
    In the four years since its implementation, NCLB has lead to many 
positive outcomes for children, particularly for those who were often 
left in the margins of previous school reform efforts. For English 
language learners, it has meant that schools, districts and states have 
had to focus attention and resources on improving the education of 
these students. NCLB has also meant that their parents could no longer 
be ignored. My office is in charge of translations and interpretations. 
Because of NCLB, all vital documents must be translated into DC Public 
Schools' five official languages before being sent out to parents. This 
practice has become so ingrained in central administration and schools 
that my office routinely receives many documents for translation that 
are not at all related to NCLB requirements.
    Before NCLB, many of our nations' schools did a wonderful job of 
educating their students. Unfortunately, many did a wonderful job for a 
lucky 85% of students. The rest, frequently ELLs and students with 
disabilities, were not so lucky. They did not succeed in school, did 
not graduate and could not pursue higher education. And, there was no 
need for schools to report to parents, to the community or even to the 
federal government.
    For those of us who are in the business of educating English 
language learners, the enactment of NCLB has meant that we no longer 
feel so ignored. Our business has now become everyone's business with 
real and concrete consequences for failing to educate ELLs. After all, 
in the field of education, being exempt means that you do not exist. 
For too many years, ELLs did not exist.
    Reporting the academic achievement of all students has led to real 
school reform. Districts and schools have had to change the way they 
provide professional development and the way they organize the delivery 
of instructional services. My office provides numerous professional 
development opportunities and an increasing number of the participants 
in our workshops are general education teachers looking for ways to 
serve their ELLs. We also offer training for principals so that they 
can provide instructional leadership for their teachers.

English Language Proficiency Standards
    DC is a member of the WIDA consortium, one of the consortia funded 
through an Enhanced Assessment Grant to develop English proficiency 
standards and assessments aligned to these standards. Our English 
proficiency standards are aligned to our new content standards, which 
are considered among the most rigorous in the country. Our teachers use 
these ELP standards so our students can be prepared to master our 
rigorous content standards.

Teacher Quality
    Schools have realized that for students to learn these content 
standards, they must be taught in general education classrooms. Many of 
our high performing schools keep ELLs in their classrooms where they 
learn what their peers learn with ESL teachers providing instruction 
and support in coordination with the general education teacher. This 
collaboration enriches instruction and allows students to access the 
knowledge and skills of several adults in their classroom. The teacher 
quality provisions of NCLB have had an enormous impact on the education 
of ELLs. Schools are staffed with teachers who have a deep 
understanding of the educational needs of ELLs.

Accountability
    Data is the keystone to accountability. The requirements for 
disaggregated data allow us to see how subgroups perform in states, 
districts and schools. They are clear indicators of the performance of 
students and of schools and districts.
    Finally, the Annual Measurable Achievement Objectives (AMAO) of 
Title III have led local education agencies to ensure that ELLs are 
acquiring English language proficiency.
    As Congress nears reauthorization, I entreat you to resist the 
calls from some quarters of our society to weaken this law. The 
accountability provisions are especially critical to our most 
vulnerable populations.

Recommendations
    As with any law, however, there are modifications that would result 
in improvements. For those of us in the field, it sometimes seems that 
we are just starting to implement a law when the five-year 
reauthorization mark suddenly arrives and Congress starts making 
changes to this law. This can be a challenge for states and districts 
but also a wonderful opportunity to improve the law after the 
experience of implementation.
    With that in mind, I would like to humbly offer some suggestions to 
improve NCLB as relates to English language learners.
    Perhaps the most important point is to maintain English language 
learners as part of systems of accountability. As stated before, please 
maintain the reporting of disaggregated data. However, for the sake of 
reporting consistency across states, Congress should consider setting a 
uniform size for the subgroups. The subgroup size for DC is 40, which 
is adequate to address concerns related to the identification of 
individual students but small enough to examine achievement.
    The Title III Annual Measurable Achievement Objectives could be 
improved. As currently defined, the AMAOs include three measures of 
achievement: progress in developing English language skills, the 
attainment of English language proficiency and AYP. However, this is 
not a clean measure of progress. States are required to test all ELL 
students, usually from grades K to 12. Since academic achievement is 
not measured at all grades, these three measures included in AMAOs are 
not parallel. Furthermore, states and districts have AYP scores for 
ELLs counted twice. A better and cleaner measure of AMAOs would be 
limited to progress and attainment of English language proficiency.
    The requirements of teacher fluency in Title III have had a 
negative impact on dual language schools. In these schools, content is 
taught in English and in the target language, often by two different 
teachers. Title III requires all teachers to be fluent in English and 
in any other language of instruction. This means that teachers who 
teach only in the target language are required to have a high level of 
English fluency although they never use English as the language of 
instruction. As other states, DC uses the Praxis (test used by states 
as part of licensing and certification requirements) as a proxy of 
English proficiency. Dual language schools have lost teachers who are 
unable to pass the Praxis because of the language load. While all 
teachers need some level of English fluency, revising this requirement 
would allow schools to keep their dual language teachers. As this model 
of instruction continues to grow in popularity for both ELLs and native 
speakers of English, Congress could provide additional support by 
changing this requirement.
    Another area for consideration by Congress should be the measures 
of AYP. While the current goal of 100% proficiency by 2014 is laudable, 
it will be impossible for ELLs to meet this goal by the very nature of 
the subgroup. This subgroup includes students who have been in the 
country only for a short period of time and may not have the academic 
skills that native-born students have. Other measures of achievement, 
including a growth model, should be considered for this subgroup.
    Assessment of academic achievement in English does not yield a true 
measure of achievement in those students who are just beginning to 
learn the language. Students in dual language schools who are learning 
content in the target language rather than in English may also be 
negatively affected by academic assessments in English. Congress should 
consider funding new consortia (such as those funded to develop ELP 
standards and assessments) to develop native language assessments or 
assessments in English that would yield more accurate measures of the 
academic achievement of ELLs.
    Finally, Congress should increase the Title III funds available for 
states. The District of Columbia received $922,000 for school year 
2005-2006 to serve nearly 5,250 ELLs. This means we received 
approximately $175 per student. A generous increase in Title III funds 
would allow us to create more innovative programs, such as our Newcomer 
Literacy Program. This programs serves secondary ELL students who are 
recent arrivals and have low levels of literacy in their native 
language. These students are those who are most at-risk for dropping 
out of high school. The preliminary results of this program show 
participants staying in school. During a monitoring visit by the U.S. 
Department of Education earlier this year, the team issued a 
commendation to DC for this program, funded by Title III.
    Thank you for the opportunity to provide testimony to this 
Committee as it embarks on the important work ahead. The Committee's 
willingness to listen to concerns from those of us charged with 
implementing NCLB gives us great hope that the amended law will 
continue to promote a high quality education for all English language 
learners.
                                 ______
                                 
    Mr. Castle. Just a couple of comments before I yield to 
myself.
    First of all, I think it has been an excellent panel for a 
couple of reasons. One, you are knowledgeable but also you have 
all made suggestions for improvements, which is what we are 
after. I won't even ask some questions but my sense is that 
each and every one of you strongly supports what No Child Left 
Behind is doing to help those with disability in English 
language learners. We think that is a very important concept of 
No Child Left Behind.
    We also, by the way, believe in the desegregated data. We 
think that is very important to demonstrate and these are the 
kinds of things that we want to make sure that we maintain as 
far as the future is concerned. So we thank you for your 
testimony. And with that, I will yield to myself first as far 
as the questions are concerned.
    And I want to go to you, Dr. Neuber, because you talked 
about your background and your past when you were classified as 
a student with disabilities and going through classes. The IDEA 
statute is to have people in the least restrictive environment. 
You have a ``Doctor'' before your name. You have a very 
impressive bio. Obviously at some point you blossomed into a 
good student.
    From your own personal watching of this and looking back at 
your own history and from what you have seen of the programs in 
general, do you feel that that wasn't spotted soon enough; that 
more could have been done, and that is a problematical area as 
far as children with disabilities are concerned? That there are 
those kids who could be taken, with the least restrictive 
environment, more rapidly than they are?
    Ms. Neuber. Thank you for the question. First of all, I 
haven't quite earned my Ph.D. But it is nice to see my name 
written in that way.
    Mr. Castle. We are here to make you feel better.
    Ms. Neuber. I think my experience in special education, I 
mean I obviously learned a lot and was able to overcome a lot 
of my disabilities. However, the way the IDEA is written, it 
involves an individualized education plan, and I think that is 
a good plan. However, what happens still is that students with 
special needs are still being put into special classes or 
special education classes and not automatically given the 
opportunity to try to succeed in the regular education 
classroom first and see how they do. And also I think the way 
the IDEA is written and implemented, it is separating special 
ed teachers from regular teachers, and rather than seeing it as 
a service, as a place.
    My experience in being able to get out of special education 
in high school and starting to get into the regular classroom 
really came from a push that my parents made to make that 
happen. The recommendation came down that let her stay in 
special education so they can be successful, when I really 
wanted to be successful in the general education classroom. And 
we all have to succeed out in the real world where there are no 
special education jobs. There are jobs for everyone and we all 
have to succeed with the general population. And I feel like No 
Child Left Behind is really saying we are all going to learn 
and we are going to give people a better opportunity to succeed 
in, quote, the real world.
    Mr. Castle. Thank you. I think we have it. It is an area we 
have to pay attention to.
    Another area I would like to go into is the State choosing 
funds wisely. I think it will take you 40 minutes to answer 
that question, I suppose, but I worry about some of these 
funds. And IDEA, for example, I worry about it in some of the 
programs mentioned here, Title III, whatever it may be. Are 
they being used for the right purposes in terms of what we are 
doing? I would just like to get a general assessment of that 
based on what you stated and what you have seen.
    Ms. Quenemoen. I actually would like to think of the 
funding for students with disabilities as part of the same pool 
that we expect States to fund high-quality education for all 
students. Federal dollars should not be the primary source of 
funding for any student in the State, it seems to me, but when 
there are needs that the Federal Government is supporting, then 
I think having documentation that the outcome of the use of 
those funds is good is important.
    It actually goes back, then, to data on how well the 
students are achieving. A least restrictive environment is that 
environment in which the students achieve to high levels given 
their needs. Where they are placed shouldn't affect how well 
they are taught, the general curriculum taught of same grade 
peers.
    So in the end, I would say your best indicator of how well 
the money is being spent both from the State level funding and 
from the Federal support is to look at the achievement of the 
students. Doesn't make any difference where they were educated. 
They all should be achieving to very high levels.
    It is why we are so concerned that it is very difficult, 
the transparency of the system is missing, so that we can 
clearly see what is happening. Once I look at that data, I like 
to actually go out and see what is happening in the schools 
where children are successful. And studies like the Donahue 
Institute recent study in Colorado have both shown that in 
schools where students with disabilities are doing well, they 
have had access to highly qualified teachers. They have 
specialized instruction that they need so they can be 
successful. So I think the data are actually embedded in NCLB 
requirements.
    Mr. Castle. Thank you. I had questions for all of you and, 
as you can see, my time is up. And if I take too long everybody 
will take too long. So I am going to turn to Mr. Miller.
    Mr. Miller. Thank you. I have been around here a long time 
and my involvement both with educational handicapped children 
back in the 1970's and participating in the right of the 
language of the least restrictive environment, free and 
appropriate education is one of the things I am very proud of. 
And obviously the writing of No Child Left Behind participation 
in that, is one of the things I am very proud of. I find both 
of these acts, my thoughts of them were--both of them were 
very--they are for optimists and they are for innovators.
    And Ms. Neuber, I like your statement that too many people 
still look at special education as a place as opposed to 
services; which, obviously, then requires you to focus on the 
needs of the student; that we still think this is someplace 
where these students go.
    I was just thinking when time ran out on you, for how many 
students another 3 minutes, 2 minutes, in the completing of the 
task would make a difference in their scores but very often it 
is not allowed.
    I would like to raise a question, Mr. Soifer. In your first 
recommendation you talk about starting points match the 
performance of schools of the 20th percentile in the State. I 
don't quite know--explain to me what you are trying to do 
there, because we are now 5 years into the act. Do we--do we 
erase all of this and start back and you would have--you would 
be AYP at 15 percent?
    Mr. Soifer. It certainly struck me as an unintended 
consequence when that provision was first enacted. It seemed to 
me that that threshold was one more perhaps of the process than 
based on any research findings.
    Mr. Miller. We thought if you were going to put in billions 
of dollars, you might try to get 1 in 5 students past the goal 
post here.
    Mr. Soifer. I understand. And from practical point of view, 
I very much appreciate where the committee needs to be.
    In the data that we have researched when we look at 
particularly State-level data, particularly at the schools that 
are the lowest performing in school districts that are making 
good conscientious improvements in student performance, the 
data for the starting point and the first couple of years are 
just unrealistic objectives for them to make. And these are 
particularly very high population--very high LEP population 
schools and they are typically some of the lowest performing 
schools in the district. And just from the very beginning the 
gains that they are making, some gains are quite impressive. 
They are just being dealt a set of circumstances where they are 
fundamentally not able to make progress in the beginning, and 
some degree of flexibility or some of the growth models seem 
promising to me. But it seems that those principles are 
certainly making good gains, but, by virtue of the fact that 
they are dealt, not good enough.
    Mr. Miller. It is obviously a technical discussion, but I 
am deeply concerned about it because I think that it goes to 
the question of what are our expectations. We have this 
program, students with disabilities, of interim flexibility and 
mathematical adjustments, that we will start to make it appear 
as if more students with disabilities and those schools and 
those classrooms are AYP than is actually the case. Whose 
interest are we serving there except maybe the--under the 
Constitution we are certainly not serving the children, 
parents, or employers that are engaged in this system. But, you 
know, the flexibility--at some point we got to get back to 
purpose of this act which is about each and every child. That 
is why we insisted upon the desegregated data. I hope we will 
continue to insist upon it and increase the transparency in 
this act.
    There is an awful lot that is being done here to solve the 
political problems; various districts, States, schools and 
others. But I think at some point we have got to get back to 
this is about high expectations, high standards, and 
accountability in reaching those standards. And I think the 
suggestion that most everybody on this panel--I think all of 
you--that far more students are capable of reaching those 
standards than are doing so, well, those are huge deficits, you 
know.
    I was always struck in my involvement with children that in 
foster care we gave a child a review every 6 months, but for a 
child that was a year old, that was half their life that they 
were sitting in some untenable place in that system. Children 
basically get, you know, you get 12 years to run the gauntlet 
here. You lose a year, you lose 18 months, you have lost a huge 
chunk of your allocated time and of your ability to acquire 
those skills.
    So I just worry, you know, that we keep making adjustments 
because there is a lot of howling going on out there in the 
country about people who find this inconvenient. And I just--I 
think we have to keep our eye on the basic principles here. 
There are many, many things that we are going to make 
adjustments about, but these basic principles in terms of--I 
mean, do we start suggesting that 1 in 6, 1 in 8 is proficient? 
I don't think my taxpayers think that is a good return on the 
investment, and that is what worries me about that. But we will 
go into more detail on that.
    Finally, just one quickly. Red light never applies to us. 
The suggestion, Mr. Buchanan, is that the new standards by 
teachers of English speakers, you find that consistent with the 
goals? I don't know. I am just--I want to look at those, but 
you find that----
    Mr. Buchanan. For the first time we have a national 
perspective so that States can take a look at these teachers, 
and not just English speakers, but other language teachers, all 
teachers of LEP students: How do we manage instruction in a 
variety of settings, in a chemistry class?
    Mr. Miller. Let me get to that. I assume they are making 
this decision, whether you have a lot of students or few 
students, that these kinds of standard would work.
    Mr. Buchanan. Yes.
    Mr. Miller. Thank you.
    Mr. Castle. Thank you, Mr. Miller. Appreciate your 
questioning and wisdom.
    Mr. Boustany is recognized.
    Mr. Boustany. Thank you.
    Ms. Neuber, I found your testimony very interesting and 
particularly from the standpoint of the fact that oftentimes, 
even with the best intentions, with good policy, a lot of time 
the implementation of policy doesn't seem to work out the way 
we expect. And I think you bring a very important perspective 
to this with your background.
    You mentioned in your testimony where you hit a wall in 
going toward a Ph.D. And then you found some assistive 
technology to help you overcome that. Can you give us an 
indication, how did you find that particular assistive 
technology?
    Ms. Neuber. One of my specialty areas is actually assistive 
technology. I have a master's in it. And I think it is 
interesting when you are a professional that you don't 
necessarily take advantage of your own knowledge and think 
about yourself as a person who could benefit from that 
technology. Technology and also assisted technology is changing 
rapidly. So I find myself recommending this technology to other 
students that are at the university level. We actually scan 
books for our students and put it into electronic format. And 1 
day I came to the realization that, hey, this is something that 
I could benefit from. And I think the reason I didn't start off 
with that is because since I have been in college, there are no 
special education classes in college. They have a service. It 
is a true service, and I wasn't taking advantage of that 
service. It was sort of 1 day when I realized that there was a 
student who needed accommodation and then started to utilize 
materials that I was offering to other students.
    Mr. Boustany. Can you tell us what is being done to 
evaluate assistive technology; what it is, what comes out, to 
see what really works, what doesn't work? And then once it is 
decided that you got a particular form of technology that seems 
to work very well, how is that information being disseminated?
    Ms. Neuber. There are a couple of ways. The Assistive 
Technology Act plays a big part of that. In Virginia, obviously 
the money is distributed through the Virginia assistive 
technology systems where there are people available to give 
advice to anyone in the community. Also each of the school 
systems generally are beginning to have assistive technology 
specialists in their school to help them purchase technology 
and evaluate that technology.
    Finding the correct piece of technology is very difficult 
because you do have to go through several different trial and 
error periods. Some people talk about it as being ``living in a 
state of stuck.'' you try something and something falls apart, 
and you have to try something else.
    So there are a lot of different ways to get access to that 
technology, but you really need to have a dedicated group of 
people who can consistently keep trying something new until you 
find the thing that works. Generally you are going to go 
through two or three different pieces of technology that don't 
work before you find what does work, so a lot of resources need 
to be available for school systems to make sure that that can 
happen.
    Mr. Boustany. One final question. In looking at the 
collaboration between special education teachers and regular 
classroom teachers, what can be done to improve that 
collaboration?
    Ms. Neuber. I think now what is happening when they are 
collaborating, it is more of a resource-room-type situation 
where the student is maybe included in the classroom, but they 
leave the classroom for additional instruction. I think what 
really needs to be pushed is more team teaching where there is 
a special education student or special education teacher and a 
regular education teacher working together. And I think that 
would benefit not only the students who are classified as 
special education, but also the typical student who might be 
struggling about some of the content. With the two teachers 
working together, I think you could provide an environment that 
is totally inclusive, where all students are getting access to 
the same curriculum, because again we are all going to have to 
take the same exams here in K to 12, but also to get into 
college, and I really believe it is important to do that.
    Mr. Boustany. Thank you very much. Mr. Chairman, I yield 
back.
    Mr. Castle. Thank you. Mr. Grijalva is recognized.
    Mr. Grijalva. Thank you, Mr. Chairman. Many years ago when 
I began school, I was--my primary language was other than 
English. And I remember the process. It was a very crude 
process and somebody, Mr. Miller, talked about that just now. 
You were held back until you did.
    And I am glad that we are talking about a topic now where 
those kinds of punitive measures are not attached to the 
ability to acquire another language. And you know, the wave of 
immigrants in this country are learning English at a faster 
rate than previous waves of immigrants in this country. There 
is a real desire and a need to learn English.
    And I believe we need to increase the availability of tools 
to learn English, and that involves funding for Title III, as 
it was mentioned. It involves the preparation of the kinds of 
highly qualified educators that we are going to need in the 
classroom. This demographic shift is not momentary, it is a 
constant. And I think as we go through this reauthorization, 
accommodating that demographic shift and what kinds of 
resources are going to be needed to assure that the 
accountability we ask for No Child Left Behind, the rate of 
transition that we worry about and are concerned about our 
goals and expectations that are met, but that is going to 
require more than just platitudes. It is going to require real 
resources and energy.
    And we can talk about English only as a platitude. We can 
talk about punitive measures for people that are wanting to 
acquire another language. Those are not going to bring us to 
the accountability, and they are not going to bring us to the 
rate of transition that we want for our children.
    On that point and the point of the educators I was going to 
ask Ms. McLeod this question: Do you express some concern, Mr. 
Soifer as well, that the obvious issue is that the teachers be 
fluent in dual languages as a working limited English 
proficient student? It is an obvious standard, common sense, 
but it is a challenge and it is a challenge to meet that 
standard.
    And I wanted to ask you, if I may, could you just further 
explain what that challenge is, because I think there is a 
pipeline, severe pipeline issue in terms of who is coming into 
the classroom and are they prepared, and what are we doing as 
part of the reauthorization to assure that we have the 
qualified--highly qualified teachers in those classrooms.
    And so could you explain to us the challenges in meeting 
that highly qualified criteria and some of the suggestions you 
might have to deal with that issue?
    Ms. McLeod. Thank you. One of the suggestions I had, Mr. 
Grijalva, is that you consider funding more professional 
development programs so that we do have highly qualified 
teachers of English language learners. The amount of 
professional development funds that have been dedicated to this 
effort have really gone down in the last few years. And the 
result is that we are going to have difficulty in meeting the 
numbers of highly qualified teachers that can serve English 
language learners.
    So I know that I and a number of other folks who work in 
the field are the products of professional development 
programs. I got my doctorate from the University of--from 
George Washington University. And it was funded through a 
professional development grant. And, like me, there are a whole 
bunch of us around; and we are the teachers, we are the 
administrators of these programs. So if you all would consider 
increasing the funding for those professional developments, I 
think those are investments that the Federal Government has 
done that are really, really worthwhile.
    Mr. Grijalva. Thank you very much. I yield back, Mr. 
Chairman.
    Mr. Castle. Mr. Ehlers is recognized for 5 minutes.
    Mr. Ehlers. Thank you, Mr. Chairman, and I will be 
following up a bit on Mr. Grijalva's questions from a slightly 
different perspective. I live in a community which has a high 
profile of religious institutions, churches, religious schools, 
and so forth, and they are also very interested in reaching out 
to those with needs in other countries. So we have a huge 
influx of refugees in our area and there is one relatively 
small school system in my district that has, it is a system 
that has students with roughly 30 different languages 
represented and in one school building that has something like 
17. That makes a very difficult situation. And since this is a 
hearing about how to improve No Child Left Behind next time 
around I have a couple questions of that.
    How do you take that out of the AYP? How do you deal with 
the AYP measurement in cases like that to really be fair to the 
school and the district? They are doing a good job. Their tests 
results are good in other areas, but obviously there is a 
problem here. How should we treat schools that have large 
populations of LEP students? How do you suggest we measure the 
progress of these schools and educating these students? In 
other words, what way should the No Child Left Behind Act be 
amended to address this what is essentially a public relations 
concern, because the superintendent and the administrators are 
terrified about reading in the paper that their school is a 
failing school. Even though we never put that language in the 
bill, that is what the newspapers use all the time. So I would 
appreciate your comments. How we can first of all improve the 
way in which we teach those students but, second, how can we as 
legislators improve the bill so that the measurements process 
is more fair?
    I appreciate any comments anyone would have. Mr. Buchanan.
    Mr. Buchanan. I think there are several approaches that 
have been alluded to a little bit by Mr. Soifer, and one of 
those for small schools might be to look at the reliability of 
growth models; that is, all of us want to prove that our 
English language learners are learning and they are making 
substantial progress in English. The challenge is how to do 
that. The assessment interest is critical that can demonstrate 
that which one the State has selected but, second, for that 
highly impacted small school, we have a number of those in 
Fairfax as well, for the exact same reason that you mentioned 
in your district: Refugee resettlement groups have been very 
active as well.
    The principals have worked extremely hard to try to meet 
the needs of those children by offering additional training to 
the teachers. We have certainly helped with title III funding 
in those cases as needed, as requested by principals. But in 
terms of those scores, to prove that students are learning 
English, and that is one of goals of the legislation, we need 
to look at where they started and set expectations for where 
they should be and chart that progress.
    Mr. Ehlers. So you are suggesting that should be part of 
the legislation?
    Mr. Buchanan. I think it should be an option and it 
certainly deserves further consideration and research.
    Mr. Ehlers. I appreciate that. It is hard to overstate the 
difficulty. One student I recall was from Bosnia in fifth grade 
and had never been in school in Bosnia. So how do you handle a 
student like that? There are endless problems that are created.
    Anyone else? Mr. Soifer.
    Mr. Soifer. I have had the opportunity to see a number of 
proposed alternatives to No Child Left Behind. And none of them 
in my estimation increases the accountability for students in 
these subgroups. What terrifies me most is any system where you 
have the existing AYP accountability but you have populations 
of students who are excluded from that. You could potentially, 
based on what we have seen particularly with special education 
and with limited English proficient students, have a federally 
subsidized segregation system, where you have kids that are 
excluded, and I think what Mr. Miller was pointing to with the 
Aspen research is very appropriate, where you are starting to 
see States and school districts look at ways of using things 
like end sizes for excluding populations of students from the 
existing accountability, and I would just respectfully submit 
to the committee that any steps that they do take, it is very 
crucial, as we have seen and we have heard in the testimony 
here this morning, that remedies do not allow for those 
exceptions and that any remedy increases accountability or at 
least maintains it and does not exclude children from this 
excellent system of accountability.
    Mr. Ehlers. I appreciate your comments and I want to 
emphasize the schools in my district are doing a great job of 
this, but they just get ranked rather poorly and that is very 
discouraging to the administration and the teachers. I yield 
back the balance of my time.
    Mr. Castle. Thank you. Mr. Kildee is recognized for 5 
minutes.
    Mr. Kildee. Thank you very much, Mr. Chairman. The term 
``disaggregate data'' some people think it is a rather new term 
that came into being with No Child Left Behind. I was chairman 
of the subcommittee back in 1994 during the previous 
reauthorization and we put the term ``disaggregate data'' in at 
that time. And we were serious about it, but I think people 
have realized that we have become very serious about it now. 
But it certainly is a 12-year-old term at least here and I 
think we borrowed it from Texas. So yet there is no question 
about it that some people still become confused by both the 
statutory language and the thousands of pages of regulations 
and guidance from the Department.
    In my own State of Michigan, for example, I note that many 
schools have difficulty in advocating through the law and its 
regulations and it seems that many of the struggles the 
Michigan schools face in meeting the requirements for these 
subgroups could be allayed by having maybe a simple, more open 
process. I think that the law itself should require very strict 
high standards for each one of these disaggregated groups. I 
think it is very important that we recognize that. Perhaps give 
some reasonable transparent flexibility to the Department, but 
some predictable flexibility. Right now it is not predictable. 
School districts seem to hear conflicting advice from different 
representatives from the Department and are frustrated by the 
lack of transparency.
    The N factor, for example. I mean, one State says they have 
200 N factor and we asked for a little beyond our 30 and we 
were rejected. And this has created a great deal not only of 
confusion out there but anger out there. And I think that we 
can do anything with people like yourself helping us to try to 
make sure we keep these standards for all these subgroups and 
have some transparency in any adjustments.
    And I do not like to see adjustments. I really think that 
we really meant high standards for each one of these 
disaggregate data. What could they, I will ask you, Dr. McLeod, 
what could the U.S. Department of Education do to help States 
and schools navigate the process more effectively and 
consistently? If you were within the Department how would you 
advise them to, under NCLB as written now, how they would deal 
with this lack of transparency and confusion that exists out 
there?
    Ms. McLeod. That is a difficult one. I think the Department 
has really made an effort to reach out to States. I know that 
we deal with the Office of English Language Acquisition and 
they have been very supportive of what we have tried to do. We 
just feel that we do not get a lot of information from the 
Department of Education. And that as you pointed out, what is 
OK for one State is not OK for another and there does not seem 
to be any reason why one State is allowed to do something and 
another State is not allowed to do the same thing when we apply 
for more flexibility. So certainly at this point more 
transparency in that process on their part would be great.
    NCLB has forced us to be a lot more transparent in the way 
we report to parents and the way we report to the community. We 
cannot hide low performing schools anymore. We cannot hide 
districts that do not do their job. And it would be really 
great if that transparency, as you point out, were also 
extended to the Department of Education.
    Mr. Kildee. I can understand some school districts are 
worried about being labeled as only the newspapers label them, 
not the law, ``a failing school'' or something like that. They 
are worried about sometimes the public relations part and what 
they really should be worried about is delivering great 
education to each one of these groups out there. And that 
should be their highest concern rather than maybe getting a bad 
editorial in their local newspaper because so many schools did 
not meet the standards.
    Anyway, I really think all of you have contributed a great 
deal to our understanding and we want to reauthorize this bill 
in a way that really makes sure that each one of these groups 
gets the very best possible education and that we let people 
know how that group is achieving, and I thank all of you. Thank 
you very much.
    Mr. Castle. Thank you, Mr. Kildee. Mr. Osborne is 
recognized for 5 minutes.
    Mr. Osborne. Thank you. I will try to be pretty brief here. 
I know at times there have been some concern about 
misdiagnosis. Young people have been diagnosed as having a 
learning disability when maybe that isn't actually the fact, a 
lot has to do with early learning experiences, and I just 
wanted to get your opinion, and this is a general question, 
whether you feel a considerable amount of misdiagnosis still 
occurs. And then the second question I have is that I note that 
roughly 1 percent of children who have maybe extremely severe 
cognitive disability are allowed to take some type of 
alternative test. And now the Department is talking about maybe 
expanding that to 2 percent is the way I read it. And do you 
feel this is an adequate percentage? 2 percent, 1 percent? And 
then the question about diagnosis, misdiagnosis in the early 
stages.
    So anybody that has a thought I would be glad to hear from 
you.
    Ms. Quenemoen. I would like to respond, first to the 
diagnoses. The way we set the criteria, States set their own 
criteria for eligibility for special education services in any 
one of the categories. Many of the categories are not--are 
fairly subjective and based on a variety of kinds of ways 
people diagnose in your terms or assess whether or not a 
student meets criteria. And there may be errors made either in 
identifying students or not identifying students over time. But 
the bottom line is if special education services eligibility 
means that you get the services and support and specialized 
instructions so that you are successful, that would not be a 
grave error.
    We have a huge problem with disproportionate representation 
of some groups in special education and I keep puzzling if in 
fact that opportunity opened the door to access to all of the 
supports you need to be successful then that would not be so 
bad, but clearly we have fallen off the track there. So rather 
than struggle, spend a lot of money trying to figure out how to 
get our criteria perfect, I would rather say, well, once they 
are identified they are given outstanding supports and they are 
successful. They are achieving to the same high standards in 
their grade, then the mis--as you call it--diagnosis will not 
harm them. But as long as we see special education as a place 
where we can provide a special curriculum or lower 
expectations, the chances of a student being harmed by being 
identified for special education are high. So let's fix the 
system. Let's not spend all of our money on criteria.
    As for alternate assessments, I work very closely with 
States on development or alternate assessment for students with 
the most significant cognitive disabilities, and we have seen 
remarkable shifts in their access to the general education 
curriculum since that time. These are students who in the past 
have typically not had access and in fact the field of severe 
disabilities has changed dramatically based on the students 
surprising us. The most common quote for students from that 
group from teachers was I had no idea what my students could do 
until we actually did this.
    Many States actually led us in that direction by saying if 
this is for all, we are going to provide it for all, and then 
the students surprised us.
    There is a group, that small group, the 1 percent of 
students who are, there is very little contention that in fact 
they need very significant supports to achieve in the grade 
level curriculum and we are seeing that happen.
    Educators do not have a good track record of being able to 
predict which other students could not learn to exactly the 
same level as their same grade peers prior to actually teaching 
them. I cite a paper by Dr. Kevin McGrew in my written 
testimony that shows that we do not have the skills to predict 
which children cannot achieve to high levels if they are taught 
well. So it seems to me personally that we have an obligation 
to teach all children well.
    I know that many States are struggling with the notion of 
increased flexibility or the notice of proposed rulemaking that 
is still out, struggling to figure out what really is the 
theory of learning that would underline that kind of logic. So 
we have told States it is time to really look closely at your 
data. Find out who your consistently low performing students 
are. Find out why they are persistently low performing, if in 
fact they have been given all the opportunities to learn that 
they need. In other words, is their consistent low performing 
because they have not been taught the grade level curriculum? 
Or if you have some groups, we know that many of those students 
do not have disabilities, the most low performing students on 
the general assessment.
    So we have been trying to support States as they really dig 
into their data to discover what is happening because it is not 
clear whether or not we have the ability to predict who should 
be in another category and thus it may be very dangerous. That 
is my opinion.
    Mr. Osborne. OK. Well, thank you. I think my time is up. 
The red light is on. I yield back.
    Mr. Castle. Thank you, Mr. Osborne. Ms. Woolsey is 
recognized for 5 minutes.
    Ms. Woolsey. Thank you, Mr. Chairman. Thank you, panel. You 
are excellent. First of all, I want to go on record saying I 
echo Dr. Ehlers' questions. They are exactly what is bothering 
me about No Child Left Behind and the questions you asked, Mr. 
Kildee, there is a huge concern about the anger in the 
communities over No Child Left Behind and what it means to the 
individual school, particularly schools that have a larger 
population of kids with the most needs.
    But what I have heard up here today from Dr. Neuber, and I 
am going to call you that because you will be very soon, Mr. 
Soifer, and Dr. McLeod, I heard in your testimony and you did 
not say it exactly like this, but that one size does not fit 
all. Dr. Neuber wanted out of the special ed environment and 
that worked for her. There also are youth who need to stay in 
that environment. And, we have English learners who are coming 
in and learning at a very fast rate but they are starting in 
the hole.
    So given the absolute goal of leaving no child behind, tell 
us how we are going to fix this problem without punishing the 
teachers and the schools, who are doing everything they can. 
How do you see more flexibility so that we can meet our goals 
through No Child Left Behind in the long run? And we will start 
down here with you, Dr. McLeod.
    Ms. McLeod. Perhaps you do not want to hear this but we 
need more funds to do our job.
    Ms. Woolsey. I want to hear it. I get it.
    Ms. McLeod. We need more funds. I mean $175 per student for 
the District of Columbia per English language learner is not 
sufficient for us to do our job. With the money that we receive 
from the Federal Government we have managed to put in all kind 
of fabulous programs to help kids, precisely the kids that you 
are talking about. We have a Newcomer Literacy Program that was 
recently recognized by the Department of Education, we received 
a commendation during the recent monitoring visit. That is a 
program to help kids who are coming in with very delayed skills 
in their native language, and it really helps them ramp up. We 
really ramp up instruction so that these kids are eventually 
able to achieve at the same level as other kids.
    So I think we know what to do. We want you to continue to 
hold us accountable for doing what we do, but we really also 
need your support. We need a lot more support than what we have 
received from Congress in order for us to be able to do our job 
effectively. I do not think I am asking for anything that is 
unreasonable. I think that any of us would say the same thing, 
and we are willing to hold up our side of the bargain.
    Ms. Woolsey. All right. And you are aware, and the other 
two of you I hope you will comment also, that the House 
Appropriations Committee has proposed a 10 percent cut this 
year in teacher qualify funding and that is on top of the many 
cuts before.
    Let's go on to Mr. Soifer.
    Mr. Soifer. There really has been a sea change, speaking 
particularly to the LEP subgroup, where there previously has 
been a culture where accountability for results was far 
removed. I was not just citing an obscure example, when a 
typical competitive grant progress would be that a competitive 
grant of a title VII recipient under the bilingual education 
act would suggest that they would make, 60 percent of students 
would make a one NCE level of growth toward English fluency. 
Then when you would go into the data you would typically find 
that somewhere between 60 to 80 percent of test scores were 
being reported. Very often it was closer to 60. That combined 
with the sea change in culture of accountability combined with 
the real challenges relating to starting points, so that there 
has been so much change so quickly, and also those lowest 
performing schools in the school district, like for instance in 
south Texas with a very high LEP population, where suddenly 
they are being walloped with these very--it is hard to look at 
those principles and describe that initial starting point as a 
realistic objective that I really think that this culture is 
really on the right track and that continuing this 
accountability without creating a segregated system, without 
segregating children out of the accountability system, is very 
much in the right direction. And I am really impressed by 
progress in places that I had not expected to be impressed.
    Ms. Woolsey. Can I take 2 minutes for Dr. Neuber?
    Mr. Castle. Certainly.
    Ms. Woolsey. Thank you.
    Ms. Neuber. I guess from my perspective I think a lot of 
the attention is on punishment of schools and then being 
worried about what it is going to look like, as Mr. Castle said 
earlier. I think what we really need to be looking at is 
worrying less about that and worrying more about what does the 
data say and how can we deal with that, how can we look at what 
the students are learning and look at it from that perspective 
instead of always looking at it from a point of view of 
sanction or some sort of punishment.
    Ms. Woolsey. Thank you.
    Mr. Castle. Thank you, Ms. Woolsey. Mr. Fortuna is 
recognized for 5 minutes.
    Mr. Fortuna. Thank you, Mr. Chairman. Thank you for holding 
the hearing today. I want to thank the panel for being here. It 
just happens that actually Mr. Hinijosa, Mr. Grijalva and 
myself have introduced, and actually and I thank the members of 
this committee, a number of amendments throughout the last year 
and a half promoting early intervention with LEP students, Head 
Start programs, for example, so that when you get them in first 
grade they have already been approached in one way or another.
    My first question, and we have done this because we are 
fully sensed that you need to learn English to achieve the 
American dream. There is no way around that. So we are big fans 
of early intervention. I have heard from some other people that 
perhaps you should take it slowly. I would like to hear from 
the panel, whomever wants to comment on this. I mean are we 
wrong in what we are trying to do in trying to accelerate that 
process of immersion so that they learn English as soon as 
possible? Is there something we do not know that we should 
know?
    Mr. Buchanan. I would like to highlight programs that we 
started in a dozen locations with title III funds called early 
literacy programs. We recognize that children's first teacher 
are their parents. This program works with 3 and 4-year-olds 
and their parents simultaneously to teach the parents who speak 
Spanish, Korean or Arabic how to pick up a book and read to 
their child, to teach them skills that they need for 
kindergarten success, like what does the sound-letter 
correspondence look like, the enjoyment of literacy.
    Our results after 2 years of that, kindergarten teachers 
are thrilled with these children coming into their classrooms 
like never before, ready with the skills taught in whatever 
language to transfer from the parents and children's first 
language. In other words, we are taking advantage of that 
resources that is already there.
    Mr. Fortuna. Thank you. Anybody else?
    Mr. Soifer. We hear all sorts of the reasons, particularly 
relating to kids that come into U.S. Schools, older who come 
into U.S. Schools, say, in the 7th grade. And there are so many 
intervening factors regarding how to go ahead and teach that 
child English. I think No Child Left Behind's approach focuses, 
and most kids that come into U.S. Schools, according to the 
U.S. Department of Education, come in in kindergarten and first 
grade. Some of the recent new programs that we have seen with 
structured English immersion in places, in some of the 
California school districts that we have studied, even in 
Miami-Dade County, where they are able to close the language 
gap by the end of the third grade really defines what we have 
heard from the bilingual education community that it can take 6 
to 8 years to attain formal fluency in English. I have been 
really impressed by some of the new structured immersion 
programs to focus on early English fluency at much younger ages 
with quite impressive levels of success.
    Mr. Fortuna. Thank you. One more question. Mr. Buchanan, in 
your testimony you mentioned your concern with those newly 
arrived students with limited English proficiency. We have 
heard also today that we do not want to segregate those 
students. So what exactly would you advocate that we have? How 
should we handle this?
    Mr. Buchanan. In our situation, as Dr. McLeod mentioned, in 
D.C. Schools we do provide additional instruction for those 
students with limited literacy in their first language. That 
takes extra dollars, that takes additional teachers, that takes 
unique strategies and technology.
    Mr. Fortuna. When you say additional, do you mean after 
school programs?
    Mr. Buchanan. That is correct. They have an additional 
period at high school level. They have an additional period 
with specialized ESL techniques. Because these are situations 
where they need very basic skills before they can access what 
is happening in a regular ESL classroom and in a conventional 
classroom. Our goal is not to segregate those students, but it 
is certainly appropriate strategies that that teacher has been 
trained in to find in individual cases, those students are the 
ones who have the steepest learning curve ahead of them. And we 
need to give them the extra time it takes. We are funding a 
substantial number of students going to summer school right now 
to do that.
    Mr. Fortuna. Thank you again, Mr. Chairman. Thank you for 
the hearing and thank you to the panel. I yield back.
    Mr. Castle. Thank you, Mr. Fortuna. Mr. Van Hollen is 
recognized for 5 minutes.
    Mr. Van Hollen. Thank you, Mr. Chairman. I apologize for 
bouncing between committees. We have a voting session in 
another committee. I serve on the Judiciary Committee but I did 
hear all the testimony when I was here earlier and I want to 
thank all the witnesses for their remarks and input, insights.
    I remember Ms. McLeod making a comment, if you are exempt 
from accountability requirements you do not exist. I think that 
is absolutely true. I think anyone who served in a government 
organization or in the private sector understands that if you 
are not part of an accountability scheme you are overlooked and 
do not exist. And I think that is the beauty of the No Child 
Left Behind program, that it creates an accountability system 
that asks us to measure progress across all groups and all 
individuals as much as possible. And so I just want to 
underscore remarks that have been made by others and other 
members of the panel that I think as we move forward as on the 
reauthorization of No Child Left Behind it is important that we 
not undermine that basic scheme.
    Now in that regard I do have a couple of questions. If I 
could ask those witnesses who are here today that are focusing 
on the disabilities component of the legislation just to 
comment on some of the regulations that have been passed by the 
Department of Education recently, the 1 percent rule and the 2 
percent rule. Because I think we all agree we want to make sure 
that there are reasonable expectations and that we have an 
implementation program that is matched to the needs of the 
students and that also makes sure that we address the concerns 
out there. But I also share Mr. Miller's concerns that at some 
point when you begin to make lots of exceptions to meet 
concerns raised in specific States or school districts, that 
you potentially create loopholes, unintentionally sometimes, 
that undermine that sort of uniform effort at accountability 
and expectations.
    So if you could comment on the regulations to date that 
have been sort of implemented to try and address concerns 
raised by some of the school districts but I am interested in 
your comments as to whether or not they neatly address those 
problems or whether you think they open up loopholes.
    Ms. Quenemoen. There was a question in the interim that we 
spoke to generally. The 1 percent option to include students 
with the most significant cognitive disabilities and 
accountability tests based on the same grade level content but 
with a different understanding of what proficiency has brought 
those children to the grade level curriculum in ways that none 
of us thought were possible.
    I wrote on book actually about 5 years ago where we were 
still wondering how these children would respond. I have been 
telling people tear out the piece of how they access the 
academic curriculum because based on these alternate 
assessments, we found that children are doing things that most 
of us did not think they could do. If nothing else comes out of 
testing that is a wonderful success story. Those are students 
who are unarguably needing very different ways of getting to 
the interesting challenging curriculum as their peers and who 
will show that differently.
    Educators have very poor skills at predicting for just 
about every other child what will happen when that child is 
taught well. We know that if you identify a student as needing 
a lowered standard that is probably where they will achieve. 
The teacher expectation effect on student achievement is very 
powerful there. So I can provide you data on just how poorly we 
predict.
    I have heard some troubling concerns from parents, actually 
from a friend of mine who went to an IEP meeting and received 
from her district a checklist of why her students should be put 
into a lower test, even though that has not been as yet 
approved, the regulation, that included a series of steps that 
said well, has this student gotten high quality instruction. 
Yeah, we can check that, we can check that, we can check that. 
So I think that some of that is already happening.
    As a parent serving on an IEP team, to make decisions about 
your student is probably the most complex and difficult work I 
have ever done, including preparing for coming here. And so the 
pressure being put on parents to back off of high expectations 
for their student is sometimes very grave. So that combined 
with educators' inability to predict who will learn when taught 
well makes us very, very cautious against any additional 
flexibility in that vein.
    Mr. Van Hollen. Thank you.
    Mr. Castle. Thank you, Mr. Van Hollen, very, very much. 
Next we will call on Ms. McCollum. I understand she is a 
birthday girl and we want to wish her a very happy birthday. I 
can give you an extra minute for your birthday.
    Ms. McCollum. You mean I do not get 52 minutes, one for 
every year? Thank you, Mr. Chairman.
    I want to pick up on exactly what you just said. Being the 
parent at one of those interventions is exhausting. You want to 
be fair. You want to be fair to the student. You want to be 
fair to the school district. You want to be fair to yourself. 
And quite frankly had I taken some of the well-intentioned 
advice, and I know it was meant as well-intentioned, from a 
school district that I think does a superb job, my son would 
have never taken a foreign language. He is dyslectic and he is 
talking about working on his Ph.D. Now in English as a second 
language and is going over to teach at a Japanese university. I 
said let him fail. But as we had these high stake tests, the 
pressures that will be put on parents even more now to do that 
because it is going to be a reflection on the school district 
coming to that collaboration now to let them take a class and 
fail in it.
    So that is where I do not want to have so much flexibility 
that people start finding loopholes. But we do need to have the 
flexibility to let people explore who they are, at the same 
time not drag the school district down for allowing that 
exploration. And so that is where the tension becomes. I 
appreciate the comments that were made by the other panelists 
about including parents.
    St. Paul schools, which I represent, refugee populations, 
people from coming over happily to people coming over having 
parents attending workshops at the centers for victims of 
torture, where you know there is a lot of conflict going on in 
that family and a lot of healing where school might not be the 
first priority. Watching Hmong mothers at a Head Start program 
sit behind a bookshelf so they could learn the English along 
with their children means that we need to provide opportunities 
for the whole family to be successful, and we are not funding 
that and we are not doing that. And we need to have a full 
discussion about that.
    What I would like to focus on, and I would like to thank my 
fellow Minnesotan so much for her testimony, is national 
standards. And I am going to kind of say why I think national 
standards are important. One, we need to know what we are 
comparing and who we are comparing and if we as a nation are 
succeeding in leaving no child behind. The other is because 
just in my own home State, because we had started our own form 
of Leave No Child Behind years ahead of the Federal Government, 
we found ourselves in a snapshot, a snapshot in which our State 
auditor predicts that according to simulations that he has run, 
and if you haven't even seen the State auditor report I think 
you would find it fascinating reading, between 80 and 100 
percent of Minnesota schools will fail to meet adequate yearly 
progress by 2014.
    Now that isn't what No Child Left Behind was set up to 
measure, but because of our State having a high standard we are 
going to be caught in a trap in which our standards are so high 
there is really no way that at some point that student can 
achieve even more at that grade level. And so we need to be 
looking at what we are measuring, how we are measuring it and 
really being careful in using this measurement to make sure all 
children in this country are moving forward.
    So I would just like to, things you would like to share 
with us that maybe you did not have in your testimony or talk 
about why if we are really going to be sincere about leaving no 
child behind we need to move toward a national standard.
    Ms. Quenemoen. I will comment briefly. I have not seen the 
auditor's report and I will look for it.
    Very often projections on what will happen by 2014 in 
States are based on a continuation of past performance by 
students, especially in the subgroups, and so one of the things 
I will look carefully at is the methodology to project.
    In terms of national standards, a number of years ago in 
one State I was asked why did we not just all come out with one 
test and one standard and when will that be. And I said, well, 
given the political discussions probably when something freezes 
over that was not their State. But I think trying to grapple, I 
think it is good that States grapple with their own standards 
and their own achievement standards and build a system of staff 
development and supports around the needs of their schools for 
their children.
    Everybody thinks their own school is good. Data suggests 
that even when their school is not good local people like their 
schools. The closer we can make some of those decisions to the 
students usually the better. That is where the predominant 
amount of the funding should come. But I would agree that there 
are in some places games being played around measuring the 
standards and in other cases just a lack of clarity. Everybody 
is pretty sure their own State is pretty good. Everybody is 
pretty sure their own district is pretty good. And everybody is 
sure their school is pretty good. So I think it is not as 
simple as announcing now that we will have a national standard, 
but your point is well taken and something that I think serious 
educators and policymakers have to address together.
    Ms. Neuber. I would like to make a brief comment about 
something that I feel very strongly about, and that is looking 
at the assessments that are given to students and making sure 
that they are designed in a way that they can show what their 
knowledge is and not designed in a way that makes it more 
difficult for them to show the knowledge that they actually 
have. And basically the idea is universal design. I think we 
all know people that are, for instance Thomas Jefferson, not 
being a great speaker but he was obviously an excellent writer. 
And I think making sure that we are giving students assessments 
where they can really show what they know and not just giving 
these assessments where you are bubbling in answers because not 
everybody can answer questions that way.
    Mr. Castle. We will take one more. We will take Dr. 
McLeod's testimony.
    Ms. McLeod. I just wanted to say about the national 
standards because it is very unlikely that we could come to 
agreement on those. I think that in lieu of that what we need 
to do is have really high content standards for each State and 
to ensure that there is an objective way of evaluating those 
standards so that each State is required to have really high 
standards and where there is a new standards board or something 
that Congress establishes. We just changed our standards and 
they are considered one of the most rigorous in the country.
    With respect to the issue of 100 percent by 2014, I do not 
think that is feasible and I do not think there is any shame in 
Congress looking at next year perhaps changing that to 
something that is more attainable for everyone.
    Mr. Castle. Thank you very much. Thank you, Ms. McCollum. 
Mr. Davis is recognized for 5 minutes.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman. 
And I think I waited until the end to hear some of what I had 
been listening to because in response to Mr. Fortuna and in 
response to the comments of Representative McCollum, I heard 
some of what I have been wanting to hear. It has been my 
experience that when children have special needs relative to 
language and culture that the family has special needs and that 
the needs are not just those of the children. And so how 
impactful, and you have responded, Mr. Buchanan, to that 
somewhat, is that we also have structured programs and activity 
built in as a part of the curriculum in terms of No Child Left 
Behind curriculum that not just leaves it to chance but makes 
certain that these parents also have the opportunity to learn 
along with their children.
    Yes.
    Ms. McLeod. I would suggest to you that No Child Left 
Behind has made it really important for parents to be involved. 
It has made it quite explicit that we have no option but to 
ensure that parents are kept informed of the progress of their 
students. I think that takes care of a lot of what we have had 
in the past where parents and the community have not really 
been notified.
    I would go further than that, however, sir, and I would 
suggest that Congress consider expanding because, as you 
rightfully pointed out, it is not just the child who is coming 
into this country and learning a new language and learning a 
new content, it is also the family. I would suggest that you 
might consider expanding Even Start programs to cover the full 
age range of students that we see in our schools. You know that 
these Even Start programs teach literacy to both parents and 
students together. Obviously something for older kids would be 
different. But definitely I think we do need more programming 
in order to continue to support parents.
    Mr. Davis of Illinois. Mr. Buchanan.
    Mr. Buchanan. I certainly support Dr. McLeod with a couple 
of examples. Again title III has allowed us to expand some very 
positive programs to teach advocacy to parents for whom that is 
not a familiar topic. I once had a Vietnamese father tell me 
when I called him to have a conference with his son, Mr. 
Buchanan, in our country first there is God, then there is 
teacher, you tell me what to do for my child.
    And so parents with that perspective need introduction and 
assistance with what they are dealing with our American school 
systems.
    Mr. Davis of Illinois. Actually when I was growing up that 
was about the way it existed where I lived in this country.
    Mr. Buchanan. With title III funds we have expanded a 
program that our principles feel is critical to reach out to 
parents who are normally not included in their schools and 
these are paraprofessionals who are multilingual, 
multicultural, called parent liaisons. They work 20 hours a 
week to bring parents to school, to teach them the ropes of 
their new community. They have been highly effective in 
Fairfax.
    Mr. Davis of Illinois. There have also been some concerns 
expressed about teacher certification that in some instances 
may be somewhat overbearing for individuals who are going to be 
certified to each special ed, that you may have to be certified 
in a number of different areas. As a matter of fact, my sister 
just retired as the principal of a special ed school. All of 
the kids there had special needs and of course there was a 
great deal of interaction, sometimes frustration, but of course 
the graduations were the best in the world because as kids 
would graduate there would be so much emotion in many instances 
expressed not only by them but also the parents, the teachers, 
and everybody else just to see the kind of progress that had 
been made. But how would you respond to the certification 
requirements for teachers?
    Ms. Quenemoen. You are specifically looking at special 
education teachers, is that correct?
    Mr. Davis of Illinois. Yes.
    Ms. Quenemoen. If a special education teacher is providing 
instruction to a student in the content area, I would expect 
that teacher to understand and be skilled in the content area. 
There are special education teachers who work in partnership 
with their content partners and they rely on people who 
understand the content in that side of the instruction and 
provide instructional support to the students. That is a 
different situation than if a student is in a self-contained 
classroom and is learning algebra from a teacher who does not 
understand algebra. So I think any of you with your children 
would hope that the teacher teaching them the content knows the 
content herself.
    In that way I do not see how you could argue against 
licensure in a content area for someone who is instructed in 
the content.
    Mr. Davis of Illinois. Thank you very much. You have been 
very patient and very informative. I was fortunate to spend 6 
years working at a special school in the city of Chicago with 
young people who had tremendous needs. And as a matter of fact, 
I think it was probably one of the greatest experiences of my 
life. And I certainly thank you for the input you have given to 
us.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    Mr. Castle. Thank you, Mr. Davis. We appreciate your being 
here and your patience in waiting until the very end. We have 
reached the end of our hearing. I do not know why we were so 
fortunate not to have a vote on the floor. Maybe they didn't 
tell us about it. I do not know which.
    I would like to thank each of the panelists. You have also 
been very patient and very thorough in your answers. I believe 
this hearing to be of utmost importance in terms of the very 
heart and soul of No Child Left Behind. So there is a lot for 
us to shuffle through as we do this, but thank you very much 
for your presence here today.
    If there is no further business the committee stands 
adjourned.
    [Whereupon, at 12:25 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
